      FISCAL YEAR 2006

 MEDICARE-ELIGIBLE RETIREE
     HEALTH CARE FUND

AUDITED FINANCIAL STATEMENTS

                     November 1, 2006
              DoD
   MEDICARE-ELIGIBLE RETIREE
       HEALTH CARE FUND
        FISCAL YEAR 2006
 AUDITED FINANCIAL STATEMENTS



                  Table of Contents


Management’s Discussion and Analysis…….........………….….…1

Principal Statements…………………………...…………….……20

Notes to the Principal Statements……..……………………..……26

Other Accompanying Information……………………………..….42

Independent Auditors’ Reports………………………………..…..44
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND



     MANAGEMENT’S
      DISCUSSION
         AND
       ANALYSIS




            1
___________________________ Management’s Discussion and Analysis

                  DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND

                         MANAGEMENT’S DISCUSSION AND ANALYSIS

                          YEARS ENDED SEPTEMBER 30, 2006 AND 2005


Description of the Reporting Entity

The reporting entity is the Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund
(the “Fund” or MERHCF). The FY2001 National Defense Authorization Act (NDAA) directed the
establishment of the Medicare-Eligible Retiree Health Care Fund to pay for Medicare-eligible retiree
health care beginning on October 1, 2002. Prior to this date, care for Medicare-eligible beneficiaries was
financed through annual Congressional appropriations for space available care in Military Treatment
Facilities (MTFs). The Fund covers Medicare-eligible beneficiaries, regardless of age. (In the context of
the Fund, hereafter the term “Medicare-eligible beneficiaries” is used to refer to Medicare-eligible
beneficiaries who are related to retirees, i.e., retirees themselves, dependents of retirees, and survivors.)

The NDAA also established an independent three-member DoD Medicare-Eligible Retiree Health Care
Board of Actuaries appointed by the Secretary of Defense. The Board is required to review the actuarial
status of the Fund; to report annually to the Secretary of Defense, and to report to the President and the
Congress on the status of the Fund at least every four years. The DoD Office of the Actuary provides all
technical and administrative support to the Board.

Within DoD, the Office of the Under Secretary of Defense (OUSD) for Personnel and Readiness (P&R),
through the Office of the Assistant Secretary of Defense (OASD) for Health Affairs (HA) (TRICARE
Management Activity [TMA]), has as one of its missions operational oversight of the Defense TRICARE
Health Delivery System, including management of the Medicare-Eligible Retiree Health Care Fund (the
Fund). The Defense Finance and Accounting Service (DFAS) provides accounting and investment
services for the Fund.

In Fiscal Year (FY) 2006, the Fund initially authorized approximately $7.1 billion (B) in total health care
services, civilian providers ($5.4B), military medical treatment facilities (MTFs) ($1.3B) and Military
Service Personnel Accounts ($0.4B), on behalf of Medicare-eligible retirees, retiree dependents, and
survivors. An additional purchased care requirement of $150 million (M) was identified and approved by
the Office of Management and Budget (OMB) in early September 2006 in support of increased
utilization, particularly pharmacy services, above projected demand. During FY 2005 budget execution,
an additional purchased care requirement of $1.2B was identified and approved by OMB in support of
similar increased utilization demands.

                              Final Fiscal Year Requirements and Funding

                                                                Operations &            Military
                          Final           Purchased Care
   Fiscal Year                                                  Maintenance            Personnel
                        (Billions)          (Billions)
                                                                 (Billions)            (Billions)
      2006                 $7.2                 $5.5               $1.3                   $.4
      2005                 $6.5                 $4.9               $1.2                   $.4
      2004                 $5.4                 $4.0                $ .9                  $.5
      2003                 $4.6                 $3.4                $ .8                  $.4




                                                       2
___________________________ Management’s Discussion and Analysis

The Fund receives income from three sources:
   1. For FY 2005 and prior fiscal years monthly normal cost payments from the Services to pay for
       the current year’s Service cost. This process changed starting in FY 2006 to a once-a-year
       Treasury payment at the beginning of the year based on budgeted force strengths.
   2. Annual payments from the Treasury to amortize the unfunded liability, and
   3. Investment income.

During the last two years of the Fund’s operation, the income was received from the following sources:

                                       MERHCF Funding Sources

                           Treasury Unfunded
                                                         Normal Cost               Interest on
                           Actuarial Liability
     Fiscal Year                                         Contribution             Investments
                            (UAL) Payment
                                                          (Billions)                (Billions)
                               (Billions)
         2006                    $16.6                      $11.1                    $4.1
         2005                    $15.7                      $10.5                    $2.2
         2004                    $16.3                       $8.1                     $.9
         2003                    $14.4                       $8.2                     $.2

No accounts of the Fund have been excluded from the Fund’s financial statements.


Overview of the Defense Health Program (DHP)

The Defense Health Program is known as TRICARE. Covered beneficiaries include:
       - Active duty Service members
       - Dependents of active duty Service members
       - Military retirees
       - Dependents of military retirees
       - Full-time reservists
       - Dependents of full-time reservists
       - Survivor dependents of military retirees and those who died on active duty

The TRICARE program consists of a combination of military MTFs and regional networks of civilian
providers that work together to provide care to eligible beneficiaries. The MTFs include 70 inpatient
facilities and 826 medical and dental clinics in the United States and overseas. Those facilities provide
care for approximately 9.2 million beneficiaries and also serve as a training ground for military medical
personnel. Because the direct care health system’s capacity is not large enough to serve the health care
needs of all eligible beneficiaries, DoD has ensured that active duty Service members receive top priority
for care at the military facilities, while other beneficiaries can receive direct care services on a “space-
available” basis. If care is not available in MTFs, beneficiaries seek care from civilian providers paid
through the TRICARE program via the Managed Care Support Contracts and the TRICARE for Life
(TFL) program.




                                                     3
___________________________ Management’s Discussion and Analysis

Managed Health Care Plans (Non-Medicare-Eligible Beneficiaries)

Individuals have access to different levels and types of benefits depending on their beneficiary status.
Active duty Service members generally obtain care from military medical treatment facilities. When
necessary (MTF referrals for care not available in the MTF or emergency situations), active duty
personnel may obtain care from civilian providers, at government expense. Family members of active
duty personnel as well as military retirees and dependents who are not eligible for Medicare can choose
from one of three main options:

        -   TRICARE Prime is similar to a civilian health maintenance organization (HMO).
            Beneficiaries are assigned to a primary care manager, who coordinates all aspects of their
            medical care. Enrolled beneficiaries may be assigned a MTF primary care manager or a
            civilian primary care manager.
        -   TRICARE Extra is similar to a civilian preferred provider organization (PPO). Beneficiaries
            pay lower co-payments than they would under TRICARE Standard if they seek care from a
            provider in the TRICARE network.
        -   TRICARE Standard is a fee-for-service plan that allows beneficiaries to seek care from any
            civilian provider and be reimbursed for a portion of the costs after paying co-payments and
            meeting deductibles.

Funding for MTF (direct) care services and civilian purchased care for non-Medicare-eligible
beneficiaries is provided through annual Congressional appropriations.

Medicare-Eligible Retiree Health Care Plan of Benefits

If beneficiaries age 65 and over cannot obtain care in a military medical treatment facility, they can
receive essentially no charge civilian care through the TRICARE for Life program. With this program
TRICARE serves as the final payer to Medicare and other health insurance for Medicare-covered
benefits, and first payer for TRICARE benefits that are not covered in the Medicare or other health
insurance programs.

TRICARE for Life covers Medicare-eligible retirees 65 years of age or older, including retired guardsmen
and reservists and Medicare-eligible family members and survivors. A beneficiary must be eligible for
Medicare Part A and enrolled in Medicare Part B. The Medicare-eligible retirees and family members of
the non-DoD Uniformed Services (Coast Guard, Public Health Service, and National Oceanic and
Atmospheric Administration) are also eligible for these benefits.

The TRICARE Senior Pharmacy Program authorizes eligible beneficiaries to obtain low-cost prescription
medications from the TRICARE Mail Order Pharmacy (TMOP) and TRICARE network and non-network
civilian pharmacies. Beneficiaries may also continue to use military hospital and clinic pharmacies, at no
charge. The pharmacy program is available to beneficiaries age 65 and over.

Finally, DoD beneficiaries, including Medicare-eligible beneficiaries, in specific locations where
Uniformed Services Family Health Plan (USFHP) facilities are available, may enroll in these capitation
rate plans. These plans include inpatient and outpatient services and a pharmacy benefit. The capitation
rate is paid by DoD. Beneficiaries who choose enrollment in these plans are ineligible for care in MTFs
as well as benefits under the TRICARE for Life and Senior Pharmacy programs.




                                                    4
___________________________ Management’s Discussion and Analysis

Health Care Purchased From Civilian Providers

In accordance with Department of Defense Instruction (DoDI) 6070.2, dated July 19, 2002, the
TRICARE Management Activity (TMA) reports each day obligations to the Fund for purchased care
provided in the civilian sector. Daily claims are validated by the voucher edit procedures required by the
TRICARE/CHAMPUS Automated Data Processing Manual 6010.50-M (ADP), May 1999, to ensure that
only costs attributable to Medicare-eligible beneficiaries are included in payments drawn from the Fund.

At the end of each month, claims processing costs are reconciled against monthly distribution estimates
and any over and/or under charged amounts are applied to the estimated requirement for the following
month. During the month of September, as fiscal year-end approaches, more frequent reconciliation
between charged accounts and available funds may occur and processing can continue up to a
predetermined cut-off date established by TMA in coordination with DFAS.

TMA reports obligations to the Fund for the estimated USFHP obligation amount based on the contract-
specific capitation rates for Medicare-eligible beneficiaries enrolled for each USFHP hospital contract
option period twice per year, upon the commitment of funds prior to the start of the option period. Each
USFHP hospital’s reported enrollment is used to reconcile contracted enrollment estimates for Medicare-
eligible beneficiaries. At the end of each option period, total charges are reconciled against the estimate
and any over and/or under charged amounts are applied to the estimated requirement for the following
option period.

At the beginning of each Fiscal Year, a new Funding Authorization Document (FAD) for the TRICARE
for Life/TRICARE Senior Pharmacy purchased care expenditure limit is provided to the TMA Contract
Resource Management Division. By agreement with DFAS, disbursement transactions are provided by
email the day prior to payment processing. DFAS uses these estimates to ensure sufficient funds are
available for payment from the Fund for daily transactions. The purchased care payments for FY 2006
were approximately $5.3 billion as compared to $4.8 billion in FY 2005.

TMA uses a TRICARE Dual Eligible Fiscal Intermediary Contract (TDEFIC) awarded to Wisconsin
Physician Services (WPS). Dual eligibility refers to health care users who are both DoD beneficiaries
(retired, dependents of retired, and survivors) and Medicare-eligible beneficiaries. With the TDEFIC
contract, WPS now processes all claims supported by the Fund, regardless of geographic region in which
care was received.

Having a single FI to process all dual-eligible claims ensures greater confidence in uniformity and
consistency of claims adjudication. Further, cost savings are realized with the claims administrative
processing fees. The TDEFIC contract stipulates $1.31 for electronic claims and $3.93 for paper claims.

Payment For Health Care Provided In Military Medical Treatment Facilities (MTF)

TMA annually develops prospective payment amounts for care estimated to be provided in MTFs to
Medicare-eligible beneficiaries. The prospective payment amounts are calculated for each MTF and
include both Military Personnel (MILPERS) and Defense Health Program (DHP) Operation and
Maintenance (O&M) costs. TMA provides a memo to DFAS with the payment amounts by Service for
MILPERS and DHP O&M that is reported on the Standard Form 1081, Voucher and Schedule of
Withdrawals and Credits by DFAS.

The prospective payment amounts are based on costs reported by the MTF’s Medical Expense and
Performance Reporting System (MEPRS) and patient encounter data for the most recent fiscal year for



                                                     5
___________________________ Management’s Discussion and Analysis

which data is complete at the time the calculations are prepared. TMA develops, in coordination with the
Military Departments and Office of the Undersecretary of Defense (Comptroller) (OUSD(C)), MTF-
specific rates in accordance with DoDI 6070.2, July 19, 2002. MEPRS cost data are recorded separately
for MILPERS and O&M components per clinical workload. These amounts are inflated to the year of
execution using standard OMB inflation rates applicable to those years. MEPRS data is recorded and
maintained by the Military Departments in accordance with DoD 6010.13-M, “Medical Expense and
Performance Reporting System for Fixed Military Medical and Dental Treatment Facilities,” November
21, 2000.

OUSD(C) distributes MTF prospective payment amounts based on the calculated annual total program
amount to the Military Departments for MILPERS costs and to TMA for DHP O&M costs. TMA, in
turn, distributes DHP funds to the Military Departments for execution. OUSD(C) includes financial
authority in the DHP Expense Operating Budget to finance the annual financial plan requirement of the
prospective payment.

When the year of execution is completed and the associated workload and cost data are available, TMA
conducts an execution review in coordination with OUSD(C) and the Military Departments. A
comparison of prospective payment amounts to actual workload and costs is accomplished in accordance
with DoDI 6070.2, July 19, 2002.

The prospective payment for O&M for MTF provided care to Medicare-eligible beneficiaries in FY 2006
was $1.3 billion versus $1.1 billion in FY 2005. Increases in O&M expenditures are primarily due to
increased drug costs and utilization of outpatient pharmacy services. While the cost of inpatient and
outpatient services has risen slightly, the utilization of these services has declined slightly. The
prospective payment for MILPERS expenditure for care provided in the MTFs to Medicare-eligible
beneficiaries in FY 2006 was $0.43 billion versus $0.42 billion in FY 2005.

Performance Measures

The mission of the Fund is to accumulate funds in order to finance, on an actuarially sound basis,
liabilities of the DoD and the uniformed services health care programs for specific Medicare-eligible
beneficiaries. There are many ways to measure the funding progress of actuarially determined accrual
funds. The ratio of assets in the Fund to the actuarial liability is a commonly used fund ratio. As of
September 30, 2006, the Fund had net assets available to pay benefits of $84.3 billion and an actuarial
liability of $538.0 billion; the funding ratio was 15.7%. As of September 30, 2005, the Fund had net
assets available to pay benefits of $59.8 billion and an actuarial liability of $537.4 billion; the funding
ratio was 11.1%. Notwithstanding the effect of other actuarial gains and losses that will occur over time,
this ratio is expected to reach 100% once the initial unfunded liability is fully amortized in accordance
with a schedule set by the Board of Actuaries. The 50-year amortization period for the initial unfunded
liability is scheduled to end in FY 2052.

Types of Investments

The Fund receives income from three sources: monthly normal cost payments from the Services to pay
for the current year’s service cost (this process changed starting in FY 2006 to a once-a-year Treasury
payment at the beginning of the year based on budgeted force strengths), annual payments from Treasury
to amortize the unfunded liability, and investment income.




                                                     6
___________________________ Management’s Discussion and Analysis

The Fund receives investment income from a variety of Treasury-based instruments such as bills, notes,
bonds and overnight investment certificates. Treasury bills are short-term securities with maturities of less
than one year issued at a discount. Treasury notes are intermediate securities with maturities of one to ten
years. Treasury bonds are long-term debt instruments with maturities of greater than ten years. Overnight
certificates are interest-based market securities purchased from the Treasury that mature the next business
day and accrue interest based on the Federal Reserve Bank of New York survey of Reserve repurchase
agreement rates.

The Fund also invests in Treasury Inflation Indexed Securities (TIIS) also known as Treasury Inflation
Indexed Protected Securities (TIPS), which are indexed for inflation. TIIS/TIPS are fixed-rate
instruments designed to protect against inflation, and the principal amount is indexed to the consumer
price index (CPI) by adjusting the CPI at issuance to the current CPI; as inflation increases, so does the
principal amount and the coupon.

All of these instruments are debt obligations of the U.S Government and are backed by the “full faith and
credit” of the government. Debt obligations of the U.S. Government have virtually no risk of
nonpayment of principal and interest at the specified due date.

The Fund receives management oversight from the Department of Defense Investment Board established
in September 2003. The members of the Investment Board are the Director, Defense Finance and
Accounting Service, the Deputy Chief Financial Officer, Office of the Under Secretary of Defense
(Comptroller) and a senior military member, currently the Vice Chief of Naval Operations. The
Investment Board met in FY 2006 and considered investment objectives, policies, performance and
strategies with the goal of maximizing the Fund’s investment income. The Board reviews the Fund’s
Law and Department of Treasury guidelines to ensure that the Fund complies with broad policy guidance
and public law. The current investment strategy reviews current cash flow needs of the Fund and invests
excess funds to match the duration of the assets with the duration of the liability.

Improper Payments Information Act

The Improper Payments Information Act (IPIA) requires federal agencies to report payments that should
not have been made or that were made in an amount different than that required by law, regulation, or
contract. The Office of Management and Budget Circular A-11, “Preparation, Submission, and Execution
of the Budget,” includes provisions implementing this Act.

For FY 2005, the error rate for the MERHCF and the TDEFIC contract was 1.77%, under the 2% contract
standard and in compliance with the IPIA. Under the TDEFIC contract, the DoD has a zero tolerance for
unallowable costs. If the contractor pays a claim that is not allowable, the Department will not reimburse
the contractor.

Status of FY 2005 Audit Findings

Our independent auditors noted material weaknesses and other discrepancies during the conduct of the FY
2005 Financial Statement Audit. The material weaknesses center around three issues:
   1. the lack of a patient-level cost accounting system
   2. insufficient evidence that adequate controls exist and have been implemented to ensure the
       timeliness and accuracy of the medical record coding processes at the MTFs, and
   3. Inadequate systems integration testing of TRICARE Encounter Data System
       (“TEDS”) implementation, resulting in a Purchased Care Claims backlog



                                                      7
___________________________ Management’s Discussion and Analysis

At issue with the lack of a patient-level cost accounting system is the fact that the actuarial liability for
Medicare-eligible retiree benefits as of September 30, 2006 and 2005 includes approximately $83 billion
(15% of total) and $91 billion (17% of total), respectively, of amounts reflecting the actuarial present
value of the projected direct-care costs of benefits to be provided by the MTFs to eligible participants in
the Fund. Additionally, the reported amounts of program revenues and cost for the year ended September
30, 2006, include approximately $4.0 billion and $1.7 billion, respectively, and for the year ended
September 30, 2005, include approximately $4.4 billion and $1.6 billion, respectively, of amounts related
to direct care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries
using data extracted from various service-specific financial, personnel, and workload systems within
DoD. With respect to extracted data, the MTFs do not have compliant, transaction-based accounting
systems and, therefore, cannot report the costs of an individual patient’s care.

True patient-level cost accounting systems are currently not available within TRICARE. In lieu of such a
system, the DoD has developed the cost allocation tool, MEPRS. It enables our MTFs to allocate all costs
associated with the daily operation of the facility into the inpatient, outpatient, dental, and ancillary
service cost centers. Average costs per weighted workload unit can then be computed for various patient
care activities.

These average costs per weighted workload unit can then be applied to specific care provided to specific
patients by reviewing the Standard Inpatient Data Record (SIDR) and Standard Ambulatory Data Record
(SADR) reported in the MHS Data Repository (MDR). The SIDRs and SADRs are prepared for each
patient encounter and contain patient specific information, to include name, Social Security Number,
sponsor or dependent status, and Medicare eligibility. Further, the SIDRs and SADRs reflect the
diagnosis and any procedures that were performed on the patient for that specific encounter. The average
costs per weighted workload unit computed in MEPRS is then applied against the specific data contained
in the SIDRs and SADRs to determine an average cost for the specific care provided to a specific patient.
Estimates of the weighted workload that will be provided to Medicare-eligible beneficiaries are calculated
for each MTF based on historical experience. When the weighted workload costs are applied against the
projected workload volume for each MTF, a prospective payment distribution plan can be computed for
each MTF for the next fiscal year.

While inpatient and ambulatory encounter costs are weighted at the MTF level as described above, MTF
outpatient pharmacy costs represent the largest cost drivers for actuarial liability. The reconciliation tasks
performed by the TMA management’s support contractor have also assessed and documented the
operation of Pharmacy Data Transaction Service (PDTS), data to support both the prospective payment
calculation of the actuarial liability. DoD Pharmacy Program Office and TMA management are in
process of deploying an RxCOTS pharmacy system as part of the Armed Forces Health Longitudinal
Technology Application (ALHTA). The RxCOTS will interface both with the Defense Medical Logistic
Standard Support (DMLSS) system and PDTS. The RxCOTS patient level interfaces will improve PDTS
accuracy of the ingredient costs of pharmaceuticals issued at Military Treatment Facility (MTF)
outpatient pharmacies

The prospective payments made to the MTFs are reconciled with actual workload activity after the close
of the fiscal year. The results of the reconciliation are used to adjust projections of MTF workload levels
and costs for the future prospective payment distribution plan. The results of the reconciliations will not
be used to make adjustments to the current prospective payment distribution plan either during execution
year activities or to a specific distribution subsequent to the close of the fiscal year’s operation.




                                                      8
___________________________ Management’s Discussion and Analysis

At issue with the prospective payment process are several applications; validation/reconciliation of
financial data prior to its input into the MEPRS cost allocation process, archiving of MEPRS data at the
close of each month, and timeliness of the reconciliation of the fiscal year prospective payment plan.
Additionally, there may be several other issues, not classified as material weaknesses, which may require
resolution.

To assist in resolving these discrepancies and in developing a detailed corrective action plan leading to an
unqualified audit opinion on the MERHCF Financial Statements, TMA management has contracted with
a support contractor, BRADSON CORPORATION. BRADSON, a local accounting consulting firm, has
extensive experience in assisting other government agencies in making improvements in their financial
reporting processes underlying their financial statements. They are coordinating TMA corrective action
responsibilities with DFAS and other entities’ responsibilities to ensure appropriate and complete
corrective actions are taken to raise the financial management activities of each appropriate entity to a
level that will lead to an unqualified opinion for the MERHCF Financial Statements.

To address the issue of validation/reconciliation of financial data prior to its input into MEPRS cost
allocation process, BRADSON is working with TMA, each of the Services’ Surgeon’s General (SG)
Offices, and DFAS to develop detailed, Service specific financial reconciliation processes. While they
have visited all three Service SG Offices and selected Army, Navy, and Air Force MTFs, they have
concentrated their initial efforts on Navy medical facility operations.

During FY 2006, BRADSON made significant progress toward the goal of providing supporting evidence
to the DoD IG and the independent auditor to audit the Navy Bureau of Medicine (BUMED) MERHCF
direct care costs during the FY 2007 audit. BRADSON completed two types of BUMED MERHCF direct
care cost reconciliations for the Fiscal Year ending September 30, 2005, and is in process of working with
BUMED to complete these reconciliations for each quarter in FY 2006 and institutionalizing these
processes going forward into FY 2007. Specifically, BRADSON focused on two types of reconciliation
processes:

        1. Daily, weekly, monthly, quarterly, and other periodic reconciliation processes performed at
           the BUMED MTFs to verify that expenses/costs source documents (supporting evidence)
           provide an audit trail to and support the amounts accounted for in the MTF trial balances
           generated daily in the Standard Accounting and Reporting System – Field Level (STARS-FL)
           and its related reporting and analysis tool the Summarized Medical Analysis Resource Tool
           (SMART). The individual MTF trial balances are rolled up to support BUMED-level
           financial statements. BRADSON documented processes and reconciliation procedures that
           demonstrate BUMED MTF reconciliation processes for the direct care costs reported in
           STARS-FL are auditable and support the balances found on BUMED (Navy direct care)
           financial statements. BRADSON accomplished this by completing detailed reconciliation
           analyses for the three largest BUMED MTFs that were reviewed and approved by the MTF
           resource managers.

        2. Reconciliation of expense/cost data reported in STARS-FL/SMART for MERHCF with
           expense/cost data generated by the Medical Expense and Performance Reporting System
           (MEPRS) and its related Expense Assignment System (EAS IV) to the Defense Department
           Reporting System (DDRS) financial statements. The MERHCF currently uses MEPRS
           business rules to support the allocation of direct care costs between MERHCF and non-
           MERHCF direct care beneficiaries. BRADSON developed and documented an “apples to
           apples” reconciliation process based on decomposition of MEPRS/EAS IV, STARS-FL and




                                                     9
___________________________ Management’s Discussion and Analysis

            BUMED command-level STARS-MCR/FDR trial balances by Unit Identification Codes
            (UICs).

BRADSON also continued to work with the Army and Air Force Surgeon’s General Offices to develop
MERHCF direct care cost financial statement to MEPRS/EAS IV reconciliation processes.

The second material weakness dealing with the controls over the timeliness and accuracy of the medical
record coding processes at the MTFs is continually being addressed. Coding accuracy of inpatient
records is approximately 90%. However, accuracy of coding outpatient and ambulatory surgery
encounters is much less, 10% to 20%. Proper and accurate coding of medical records is essential for
ensuring quality of care and to accurately document diagnosis and treatment procedures in the SIDRs and
SADRs. Health Affairs (HA) has long since identified medical record coding as a deficiency requiring
attention. HA/TMA has published both a DoD Directive for medical records retention and coding and a
DoD Instruction on medical encounter and coding at MTFs. Realistic goals for medical records coding
accuracy have been established and discussed with the Services’ Surgeons General.

Additionally, the three Surgeons General are required to certify monthly data quality reports. In
completing the data quality reports, the MTFs are required to randomly select inpatient, outpatient, and
ambulatory surgery encounters for review to determine coding accuracy and, then, reflect the results in
the monthly quality reports. Furthermore, Health Affairs has, for several years, contracted with
AdvanceMed to conduct independent audits of a random sample of inpatient, outpatient, and ambulatory
surgery records at MTFs to verify coding accuracy. The results of these independent audits are shared
with the Service Surgeons General and the Tri-Service Data Quality Management Control committee.

To the extent the element of human error can be minimized, medical record coding will be positively
affected. Therefore, included in the new clinical workload reporting system, the Armed Forces Health
Longitudinal Technology Application (ALHTA), also known as the Military’s Electronic Health Record,
is an enhanced provider coding capability. This new coding capability is designed to be used by the
provider at the time care is rendered to the patient. Deployment of ALHTA throughout the DoD medical
treatment facilities should be completed by February 2007. Concurrently, the DoD is deploying a new
retrospective coding compliance automated system referred to as the Coding Compliance Editor (CCE).
This system will provide coding clerks the capability to review coded records after all data associated
with the patient encounter has been included in the record and initiate appropriate corrective action where
coding inconsistencies exist. Deployment of ALHTA and CCE should improve medical record coding,
although improvement and maintenance are iterative processes that require continual attention.

The issue of medical record coding discrepancies is a current material weakness that, due to operational
control, belongs to the Services’ Medical Services. Health Affairs/TMA are committed to monitoring the
Services’ development of corrective action plans to improve medical record coding accuracy and to
continue reviews of coding accuracy, to include independent audits.

While continuing to improve the accuracy of medical record coding, Fund management is concurrently
working to determine the impact of medical record coding on the Fund’s financial statements.
Specifically Fund management is working with its contractors to:
        •   Assess/isolate coding accuracy of outpatient medical record coding based on direct care
            workload drivers that impact assignment of patient encounter to weighted workload product.
            An independent review of previously audited medical records was conducted in June 2006
            and revealed that, while overall outpatient coding errors were significant, the assignment of
            the patient encounter to the proper weighted workload unit was 96% accurate. However, the



                                                    10
___________________________ Management’s Discussion and Analysis

            data reviewed was from FY 2004, and the results of the study can not be extrapolated to the
            overall population of medical records.
        •   A new contract to an independent contractor was awarded in September, 2006. The
            contractor will perform monthly audits of medical record coding accuracy as was done
            before. However, the contractor will now perform monthly analyses of components' coding
            that could impact assignment of patient encounters to weighted workload products.

The third material weakness identified in the FY 2005 audit addressed inadequate systems integration
testing of TRICARE Encounter Data System (“TEDS”) implementation, resulting in a Purchased Care
Claims backlog. TMA management has taken corrective actions to address the related material
weaknesses, including clearing the purchased care claims backlog. These actions include:
        ● The Executive Information and Decision Support (EI/DS) program office implemented
        corrective actions and incorporated the required guidance, the Capstone Test & Evaluation
        Master Plan, Annex A, Patient Encounter Processing and Reporting (PEPR) to support overall
        program management and oversight. Additionally, EI/DS participates with TMA Purchased Care
        Management and Resource Management offices on the TEDS management work group to
        develop, implement, and monitor TEDS processing change requests as quickly and efficiently as
        possible.
        ● The EI/DS program office is acquiring a separate database query capability to support financial
        accounting and reporting requirements without impacting the TEDS operational environment.
        ● All records from transactions occurring in FY 2004 and FY 2005 were made available,
        including business rules existent at the time of processing, as well as complete header
        information. However, TMA management was concerned about being able to establish sufficient
        controls to ensure it could produce an exact re-enactment of the claims processing in FY 2004
        and FY 2005. Further, after extensive analysis, EI/DS and the TMA Office of Business and
        Economic Analysis (BEA) concluded that significant time and expense would have to be devoted
        to reprocessing the data in order to arrive at reliable figures. This processing would have
        interfered with ongoing business functions, with the probability of causing work slippages and
        claims processing backlogs in FY 2006.
        ● The EI/DS program office implemented the required controls to manage TEDS processing, to
        include problem identification, resolution, and escalation to the appropriate TMA offices.

Computation of Incurred Claims Reserve

The actuarial determination of the Fund’s liability for Incurred But Not Reported (IBNR) claims for
purchased care for the Fund’s beneficiaries relies on data files provided by TMA to the Office of the
Actuary (OOA). Due to the lack of a fully integrated financial management system to support the
Defense Health System, certain data is provided to OOA from health care operational sources, rather than
from the accounting and financial records of claims payment activity.

The Contract Resource Management (CRM) Division in Aurora, Colorado, monitors claims processing
activities performed by the TDEFIC fiscal intermediary, WPS, in support of purchased care activities for
Medicare-eligible beneficiaries. During FY 2004, CRM transitioned to a new claims documenting data
base. The transition process resulted in claims processing discrepancies that generated significant claims
processing backlogs in the last quarter of FY 2004 and the first quarter of FY 2005 (aggregating
approximately $133 million). Consequently, the IBNR calculation as of September 30, 2004, was
understated due to the missing claims data, and no update to the IBNR calculation for the first quarter of
FY 2005 could be made. Estimates for the remainder of FY2005 included a substantial margin of


                                                    11
___________________________ Management’s Discussion and Analysis

conservatism due to the concerns about the accuracy and completeness of the underlying claims data.
The backlog of claims appears to have been resolved and have been included in the calculations of IBNR
as of September 30, 2006. However, we have not quantified the complete budgetary and proprietary
accounting effects of the backlog on the MERHCF financial statements for FY 2004, FY 2005, and FY
2006.

To better monitor purchased care claims processing and mitigate the potential for an undetected large
increase in claims backlogs occurring in the future, MERHCF management has developed a purchased
care claims backlog metric to report quarterly to OUSD(C).

Each quarter the MERHCF estimates the IBNR purchased claims liability. IBNR represents health care
received by Medicare-eligible beneficiaries for which the Department has not yet received a bill. The
purchased care claims processing metric monitors the completeness of the data used for the IBNR liability
calculation. The metric is calculated by dividing the liability from claims on hand that is actually used in
the IBNR calculation (without any backlogged claims) by the liability that includes any claims that were
backlogged at the time of the IBNR calculation.

By their nature, IBNR calculations need regular, or typical data. The data does not necessarily have to be
100 percent complete, but the data must have a large percentage of claims included, and most
importantly, the degree of incompleteness should remain fairly constant over time. This metric guards
against the very large, unpredictable backlogs that the Department experienced in FY 2004 and early FY
2005.

The goal is to ensure the IBNR calculation is based upon no less than 85% of the liability contained on all
processed and backlogged claims. It is anticipated that 8% to 12% of available monthly claims will not
be included in the IBNR calculation due to the cutoff of processed claims by 10:00 am the last business
day of the month. The cutoff was established to ensure IBNR calculations could be completed in time to
meet reporting requirements. As of September 30, 2006, the IBNR calculation included 100% of
available monthly claims.

Coast Guard Issue

The determination of the amount of funds to be provided by the MERHCF to the Coast Guard for care
provided in their clinics to Medicare-eligible beneficiaries remains an open issue. In FY 2004, Coast
Guard representatives presented to the MERHCF Audit Committee an annual requirement of
approximately $2.5 million. This estimate was based on historical budget reports and average costs for
patients seen in their clinics and for prescribed medications from their pharmacies.

The Audit Committee questioned the rationale of the assumptions and computations used to project the
annual requirement and asked the Coast Guard Inspector General (CGIG) to review and approve the cost
estimate methodology and funds request. Further, the Audit Committee requested a formal written
request for funds signed by a senior Coast Guard official once the methodology was reviewed and
approved by the CGIG.

Through FY 2005 and FY 2006, the Coast Guard and the CGIG were in the process of developing an
acceptable methodology for the computation of MERHCF funding requirements to support Coast Guard
MTF care given to Medicare dual-eligible beneficiaries. The MERHCF Audit Committee will not
approve the release of MERHCF funds to Coast Guard clinics until a formal written request is submitted
with CGIG approval.




                                                    12
___________________________ Management’s Discussion and Analysis


DoD Inspector General Audit of Military Services’ Monthly Normal Cost Contribution

The MERHCF receives revenue from the Treasury. These intragovernmental earned revenues include the
following:

                1. Annual unfunded actuarial liability payment from the Treasury
                2. Annual contributions from the Treasury on behalf of the Uniformed Services (normal
                   cost), and
                3. Interest earned on investments from the Treasury

The 2005 National Defense Authorization Act (NDAA), Section 725, directed that at the beginning of
each fiscal year (after September 30, 2005), the Treasury to pay into the Fund the normal cost
contribution previously paid by the Services’ MILPERS accounts. The Department of Treasury makes
one lump-sum normal cost contribution on behalf of the Services at the beginning of the fiscal year along
with the unfunded accrued liability payment. Rather than the Services providing monthly payments into
the Fund based on actual monthly personnel end-strengths (as was the case prior to FY 2006), the
Treasury now makes one payment based on the expected average force strength (budgeted). As has been
the case with the monthly payments made by the Services, the Treasury payment will be computed using
the actuarially developed per capita rates.

Specifically, the DoD MERHCF Board of Actuaries now issues a letter each year approving the required
amortization payment and the required normal cost contributions for DoD, U.S. Coast Guard, Public
Health Service (PHS), and National Oceanic and Atmospheric Agency (NOAA). The normal cost per
capita rates determined by the Board of Actuaries are multiplied by the expected average force strength
for the fiscal year. The Office of the Under Secretary of Defense (Comptroller) (OUSD(C)) then prepares
a letter to the Secretary of the Treasury for the Secretary of Defense signature certifying the total
amortization payment and the DoD normal cost contribution amounts. In addition, the letter requests the
Treasury issue warrants at the start of the fiscal year to the MERHCF for the amortization payment and to
the 10 new MERHCF contribution accounts set up by the Office of Management and Budget (OMB) for
the DoD contributions. Each of these contribution accounts corresponds to one of the 10 military
personnel accounts (Active, Reserve or National Guard). OUSD(C) also submits a letter apportionment
request to OMB for the 10 MERHCF contribution accounts. Once the Treasury issues the warrants at the
start of the fiscal year, the Services, that same day, transfer all of the funding to the MERHCF. DoD
contributions are then complete for the fiscal year. The Secretaries of Commerce, Department of
Homeland Security, and Health and Human Services separately certify and request warrants from the
Treasury for their normal cost contributions.

The DoD MERHCF Board of Actuaries approves all methods and assumptions used for determination of
the normal cost contribution rates. OOA calculates the normal cost contribution rates each year based on
an actuarial model that computes the amount needed to fund the current-year liability for a cohort of new
entrants to the military. For FY 2006, the full-time rate was $471, and the part-time rate was $277. For
FY 2005, the full-time rate was $447, and the part-time rate was $261.

During FY 2005, the DODIG conducted an audit on the “Accuracy of the Contributions to the Medicare-
Eligible Retiree Health Care Fund” (Project No. D2005-D2000FJ-0081.000). On July 12, 2005, the
DODIG issued its findings and recommendations as follows:

       FY 2005 DODIG Findings: The Military Departments did not always contribute the correct
amounts to the Fund in the two quarters the DODIG reviewed. The Military Departments underpaid the



                                                   13
___________________________ Management’s Discussion and Analysis

Fund by $218.8 million in the first quarter of FY 2005. The Navy and the Air Force made adjusted
payments to the Fund to correct FY 2005 underpayments identified during this audit. The Army’s FY
2005 underpayment of $32.97 million was a result of the Army erroneously using the FY 2004 per capita
normal cost contribution amount instead of the FY 2005 per capita amount in the first quarter of FY 2005.
This underpayment was not paid into the Fund as of the close of FY 2005. Therefore, an
intragovernmental receivable was booked in the fourth quarter of FY 2005 and was recouped in the first
quarter of FY 2006.

In response to the findings, the Under Secretary of Defense (Comptroller) has placed written guidance in
the Financial Management Regulation (FMR) describing implementation of the legislative change
requiring the Department of Treasury to start making annual normal cost contributions on behalf of the
Services in FY 2006. This process has been disclosed in the footnotes of the MERHCF financial
statements.

The Office of the Actuary and the DoD General Counsel have agreed that only one normal cost
contribution payment will be made by the Department of Treasury at the beginning of the year, and it will
be based on “expected average force strength”. If actual force sizes throughout the fiscal year vary from
the expected size, no retroactive adjustment will be made to the normal cost contribution. To the extent
there is a difference, the normal actuarial process will adjust/fund through the actuarial gain/loss
mechanism addressed in the current law (USC, Title 10, Chapter 56, (1115(c)(4)).

Army Under-Payment of FY 2005 Monthly Normal Cost Contribution

From the start of the Fund’s operation in FY 2003 through FY 2005, monthly contributions were made
from the Uniformed Services into the Fund. As stated earlier, starting in FY 2006, the Treasury makes
one lump-sum normal cost contribution payment at the beginning of the fiscal year on behalf of the
Services based on budgeted end strengths times the full-time (Active Duty) and part-time (Guard and
Reserve) rates, as appropriate.

Each month, the Military Services’ contributions process included the following actions:

        -   The Military Services calculated their monthly contributions.
        -   The Services provided the contribution information to the appropriate Defense Finance and
            Accounting Service (DFAS) Center.
        -   Each DFAS Center transferred the contributions to the MERHCF via the Intragovernmental
            Payment and Collection System (IPAC).

The Services calculated the contribution by multiplying the monthly end strength for that Military Service
by the standard monthly full-time (Active Duty) or part-time (Guard and Reserve) per capita contribution
rates. The Services prepared monthly end strength reports and used these reports to calculate the
contributions to the MERHCF. The DoD MERHCF Board of Actuaries estimates the required per capita
contribution rates each year. For FY 2005, the full-time rate was $447 and the part-time rate was $261.




                                                   14
___________________________ Management’s Discussion and Analysis

During the audit of the FY 2005 MERHCF Financial Statements, a discrepancy was discovered in the
Army Reserve Normal Cost Contribution payment for September 2005. The Army Reserve Personnel
Office should have paid into the Fund an estimated additional $43,104,933 based on Army-provided
Reserve personnel end strengths and the Board of Actuary-determined part-time per capita rate. The
MERHCF recorded the estimated accounts receivable from the Army Reserve and disclosed this
information in the footnotes of the MERHCF’s Unaudited Financial Statements for the three months
ended December 31, 2005 (1st Quarter, FY 2006).

Subsequently, the Army completed a schedule that compared payments made versus payments calculated
using Army actual end strength reports for Reserve personnel. The differences resulted in an
underpayment of $32,855,033, calculated on a retrospective basis for the entire FY 2005. The difference
between this revised Army account receivable and the amount recorded at the close of FY 2005,
$43,104,933 was discussed with the MERHCF Audit Committee. All members agreed to the revised
receivable of $32,855,033 and payment of the Army Account Receivable was received by DFAS-DE into
the Fund on September 29, 2006.

Legislative Proposals

The 2007 National Defense Authorization Act (NDAA) included the several relevant sections concerning
the MERHCF. Section 592 of the Conference Report, “Revision in Government Contributions to
Medicare-Eligible Retiree Health Care Fund”, excluded from the term “members of the uniformed
services on active duty” cadets at the United States Military Academy, the United States Air Force
Academy, or the Coast Guard Academy or Midshipmen at the United States Naval Academy. This
change, other things being equal, will reduce the Board of Actuaries annually calculated normal cost
contribution and the health care liability. The elimination of cadets and midshipmen from the calculation
of the active duty portion of the normal cost contribution and the health care liability will take affect
beginning with FY 2008.

Section 708(b) of the 2007 NDAA Conference Report directs the Secretary of Defense to transfer
$186,000,000 from the un-obligated balances of the National Defense Stockpile Transaction Fund to the
Department of Defense Medicare-Eligible Retiree Health Care Fund.

Pharmaceutical Refunds for Retail Pharmacy Support

The Veterans Health Care Act (VHCA) of 1992, codified at 38 U.S.C., 126, established federal ceiling
prices (FCP) of covered pharmaceuticals (requiring a minimum 24% discount off non-Federal average
manufacturing prices (non-FAMP) – non-FAMP procured by the four designated agencies covered in the
Act: Department of Veterans Affairs (VA), Department of Defense (DoD), Coast Guard, and the Public
Health Service/Indian Health Service. VA administers the VHCA discount program on behalf of the four
specified agencies. Under the Federal Supply Schedule (FSS) program (41 U.S.C., 259(b)(3)(A)), the
General Services Administration (GSA) has authorized VA to award and manage schedule contracts with
pharmaceutical companies. FSS contracts allow Federal agencies to obtain pharmaceuticals at prices
associated with volume buying which, at times, may be lower than FCPs under VHCA. DoD currently
has access to FCP and FSS prices for pharmaceuticals used in military treatment facilities (MTFs) and the
TRICARE Mail Order Pharmacy (TMOP) program by either direct purchases or procurements through a
Defense Supply Center Philadelphia (DSCP) Prime Vendor. Federal prices were not available to DoD
through retail pharmacies under the previous at-risk TRICARE Managed Care Support Contracts
(MCSCs) because VA had determined that the contracts were not structured to meet the VHCA statutory
requirements for an agency-controlled centralized commodity management system. The VA’s decision
reflected concerns that pharmaceuticals would not be traceable to DoD, pharmaceutical payments were



                                                   15
___________________________ Management’s Discussion and Analysis

not made directly by DoD, and there was no assurance that DoD (vis-à-vis a contractor) would receive the
benefit of federal pricing.

The new TRICARE Retail Pharmacy Program (TRRx) carved out retail pharmacy from the MCSCs,
consolidated delivery of retail prescriptions under a single Pharmacy Benefits Manager (PBM) contract,
and addressed VA’s previous concerns under VHCA. The PBM contractor provides a retail pharmacy
network and acts as fiscal intermediary, upon TMA authorization, to issue funds from a government
account in payment for prescriptions dispensed to TRICARE beneficiaries. A government organization,
the DoD Pharmacy Benefits Office (PBO), uses the reporting and audit capabilities of the Pharmacy Data
Transaction Service (PDTS)* to verify beneficiary eligibility from the Defense Enrollment Eligibility
Reporting System (DEERS), check for drug interactions, and authorize prescription payments. PDTS
also identifies covered drugs eligible for federal pricing. The PBO, using industry standard reports from
PDTS, will provide to manufacturers itemized data on covered drugs procured through TRICARE retail
network pharmacies to obtain appropriate refunds on covered drugs subject to federal pricing. The PBM
contractor has no role in DoD’s process for obtaining refunds for the government based on FCPs already
established by the VA and DoD, in accordance with the VHCA. DoD’s contract with and payments to
the PBM contractor are not related, either directly or indirectly, to federal pricing of pharmaceuticals
dispensed to TRICARE beneficiaries by network pharmacies.

*The PDTS, fully deployed since June 2001, creates a centralized data repository that records information
about prescriptions filled for DoD beneficiaries at MTFs, the TRICARE Retail Pharmacy Network, and
the TRICARE Mail Order Pharmacy Program. Transactions and messaging are based on National
Council for Prescription Drug Program (NCPDP) standards, which is the Health Insurance Portability and
Accountability Act (HIPAA) standard pharmacy transaction code set. The primary purpose of the PDTS
is to improve the quality of prescription services and enhance patient safety by conducting on-line
interactive screening of the patient’s entire medication profile and alert notification prior to the dispensing
of the prescription; thereby reducing the likelihood of drug-drug interactions, therapeutic overlaps, and
duplicate treatments. PDTS also serves as the conduit for eligibility verification via the DEERS and
transmission of TRICARE Encounter Data (TED) for financial accountability for the TRICARE Mail
Order Pharmacy and TRICARE Retail Pharmacy contracts.

                                                 Discussion

In May, 2004, the VHCA was applied to the TRICARE Pharmacy Benefits Program, specifically, for
beneficiaries obtaining covered pharmaceuticals from retail pharmacies. The retail pharmacies obtain the
drugs they dispense at non-discounted prices. The mechanism for payment involved a “Dear
Manufacturer” letter sent to the pharmaceutical manufacturers. The letter required that these
manufacturers calculate a discount rate and pay refunds to DoD for covered drugs purchased at network
pharmacies. The letter demanded refunds as of September 30, 2004.

The Coalition for Common Sense in Government Procurement requested legal review of that letter, and
the VA agreed to postpone enforcement pending judicial review. While enforcement was stayed during
judicial review, some manufacturers made voluntary refunds to DoD during this time period. As of
August 31, 2006, the MERHCF had received $23.6 million in FY 2005 and $30.2 million in FY 2006.
These refunds are identified by fiscal year and specific pharmaceutical manufacturer.

By decision dated September 11, 2006, the Court of Appeals for the Federal Circuit set aside the “Dear
Manufacturer” letter and, on procedural grounds, ruled against the government’s position in the federal
drug pricing litigation. The Court held that the action taken by the VA in determining the revised
TRICARE Retail Pharmacy program qualified for federal ceiling prices was in the nature of a substantive



                                                      16
___________________________ Management’s Discussion and Analysis

regulation and that it, therefore, should have been issued for public comment before it was adopted. The
Court, thus, set it aside and reminded the matter to the VA for further consideration. The Court did not
reach the major substantive issue of whether the TRICARE Retail Pharmacy program should be
considered as covered by the current law. Thus, the VA could reassert its current interpretation of the law
through a notice-and-comment rulemaking procedure.

As a result of the Court decision, TMA has been advised by counsel to suspend indefinitely the quarterly
refund invoicing to manufacturers involving network retail pharmacy drugs. The VA General Counsel
has requested the Department of Justice not to seek rehearing of the Court’s decision. Therefore, TMA
General Counsel has advised the MERHCF to reimburse any refunds received in FY 2005 and FY 2006.
A nonfederal accounts payable to the public of $53.8 million has been established to reimburse affected
pharmaceutical manufacturers during the 1st Quarter, FY 2007. In accordance with 10 U.S.C. 1113(c)(2),
transfers from the MERHCF must be made no later than September 30, 2007 for FY 2005 refunds and no
later than September 30, 2008 for FY 2006 refunds.

Limitations of the Financial Statements

These financial statements have been prepared to report the financial position and results of operations for
the MERHCF pursuant to the requirements of the Chief Financial Officers Act of 1990. While the
statements have been prepared from the books and records of the MERHCF in accordance with the
generally accepted accounting principles for Federal entities and formats prescribed by the Office of
Management and Budget, the statements are in addition to the financial statements used to monitor and
control budgetary resources that are prepared from the same books and records. These statements should
be read with the realization they are for a component of the U.S. Government, a sovereign entity;
unfunded liabilities reported in the financial statements can not be liquidated without the enactment of an
appropriation; and the payment of all liabilities other than for contracts can be abrogated by DoD.

Comparative Financial Data

Comparatively, several line items on two of the financial statements have changed significantly from FY
2005 to FY 2006. The presentation of the FY 2005 data has been updated for the changes in presentation
required in conjunction with the OMB Circular A-136, “Financial Reporting Requirements,” updated and
revised in July 2006 and certain FY 2005 balances have been reclassified to conform to the FY 2006
presentation.

The Balance Sheet reflects significant changes in “Total Assets,” “Actuarial Liabilities,” and “Benefits
Due and Payable” (Incurred But Not Reported, IBNR). Total Assets increased from $60.7 billion in FY
2005 to $85.4 billion in FY 2006. The increase in FY 2006 is attributable primarily to Service normal
cost contributions of $11.1 billion, Treasury annual unfunded actuarial liability payments of $16.6 billion
in, and interest on investments of $4.1 billion. This phenomenon will continue into future years as the
annual deposits/investments into the Fund exceed annual health care expenditures.




                                                    17
___________________________ Management’s Discussion and Analysis

The Actuarial Liability has increased from $537.4 billion to $538.0 billion. The increase ($ in
Thousands) tracked as follows:

   Actuarial Liability as of 9/30/05                                       $537,397,092
   Expected Normal Cost for FY 2006                                        $ 11,043,720
   Expected Benefit Payments for FY 2006                                   $ (7,461,017)
   Interest Cost for FY 2006                                               $ 34,047,927
   Actuarial (gains)/losses due to other factors                           $ 42,129,764
   Actuarial (gains)/losses due to changes in trend assumptions            $ (79,124,939)
   Actuarial Liability as of 9/30/06                                       $ 538,032,547
   Change in Actuarial Liability                                           $     635,455

Each year the Actuarial Liability is expected to increase with normal cost (+$11.0 billion), decrease with
benefit payments (-$7.5 billion), and increase with the interest cost (+$34.0 billion). The actuarial gains
due to new medical trend assumptions are $79.1 billion. The actuarial gains and losses due to other
factors (net - +$42.1 billion) includes new population data, other actuarial experience being different from
assumed and actuarial assumption changes other than the change in trend assumptions.

Other liabilities on the Balance Sheet represent the purchased care claims reserve, also known as the
Incurred But Not Reported (IBNR) liabilities. Current IBNR liabilities decreased $157.5 million (21%)
from fourth quarter FY 2005 to fourth quarter FY 2006. These IBNR costs, which represent an
actuarially determined estimate of liabilities for covered medical services rendered before the end of the
4th Quarter, FY 2006, decreased for the following reasons:

   1. Improved reporting of overhead costs ($38 million)
   2. Lower expected trend in incurred claims ($77 million)
   3. Refinements to the claims reporting system and faster claims processing ($42.5 million)

The Net Cost of Operations on the Statement of Net Cost reflects an increase in Intragovernmental Costs
of $261.2 million (13%) as described in the footnotes to the financial statements, which is attributable to
increased ambulatory pharmacy use and increases in actual costs per patient encounter for inpatient,
outpatient, and pharmacy care/services.

The $32.6 billion (86%) decrease in Public Costs is primarily attributable to the difference between the
change in the actuarial liability in FY 2005, and the change in the actuarial liability in FY 2006. For FY
2005, the actuarial liability increased $33.3 billion; for FY 2006, the actuarial liability increased only
$635.5 million. The increase in FY 2005 was close to the expected increase in the actuarial liability, had
all actuarial assumptions remained the same as those used for FY 2004. The increase for FY 2006 was
much less than the expected increase in the actuarial liability, had all actuarial assumptions remained the
same as those used for FY 2005. Contributing factors included changed assumptions related to average
medical costs, administrative costs, and medical cost inflation.

More detailed comparisons between FY 2005 and FY 2006 line items can be found in all of the
MERHCF’s principal statements and footnotes. Balances representing a 10 percent increase between
fiscal years on any component of a line item are considered material and are discussed in the
corresponding footnote.




                                                     18
___________________________ Management’s Discussion and Analysis

Management Assurances

Agencies are required to provide certain assurances as to the status and effectiveness of the internal
controls and financial management systems that support the preparation of the financial statements. In the
context of the MERHCF MD&A, DoD, and not MERHCF, represents the legislative definition of an
Agency. Beginning with fiscal year 2006, as directed in OMB Circular A-123, Management’s
Responsibility for Internal Control, Appendix A, Internal Control Over Financial Reporting, the 24 CFO
Act agencies (includes DoD), are required to provide a separate assessment of the effectiveness of the
internal controls over financial reporting as a subset of the overall Federal Managers Financial Integrity
Act (FMFIA) assurance statement. OUSD(C) issued guidelines to the Heads of DoD Components,
including MERHCF, as to how to support this DoD reporting requirement. TMA management complied
with the required guidelines for MERHCF.

Internal Controls Over Financial Reporting and on Compliance with Other Matters

During an independent audit of the Fund’s financial statements, the auditor “identified deficiencies
related to the internal control over the preparation, analysis, and monitoring of financial information to
support the efficient and effective preparation of financial statements. Because of these deficiencies, the
auditor believes the Fund’s financial management system does not meet the requirements of an integrated
financial management system as defined in OMB Circular A-127, with respect to consistent internal
control over data entry, transaction processing and reporting. Further, the auditor believes the Fund is not
in compliance with the system design requirements sufficient to comply with internal and external
reporting requirements, including, as necessary, the requirements for financial statements prepared in
accordance with the form and content prescribed by OMB and reporting requirements prescribed by
Treasury, and to monitor the financial management system to ensure integrity of financial data.”

More detailed discussion of the auditors findings on internal controls can be found in the “Independent
Auditors’ Report on Internal Control Over Financial Reporting and on Compliance and Other Matters
Based Upon the Audit Performed in Accordance with Government Auditing Standards.”




                                                    19
           DoD
MEDICARE-ELIGIBLE RETIREE
      HEALTH CARE
          FUND



  PRINCIPAL STATEMENTS




            20
___________________________________________ Principal Statements


                                       Department of Defense
                               DoD Medicare-Eligible Health Care Fund
                                        BALANCE SHEETS
                                 For the Years Ended September 30
                                          (In Thousands)




                                                                  2006                 2005
ASSETS

     Intragovernmental:
        Fund Balances with Treasury (Note 2)                $         37,855     $          5,000
        Investments (Note 3)                                      85,394,986           60,691,679
        Accounts Receivable, Net (Note 4)                                  0               32,970
     Total Intragovernmental Assets                         $     85,432,841     $     60,729,649

   Accounts Receivable, Net (Note 4)                                   8,803               11,256
TOTAL ASSETS                                                $     85,441,644     $     60,740,905



LIABILITIES

    Intragovernmental:
       Accounts Payable (Note 6)                            $           49,109   $         43,043
    Total Intragovernmental Liabilities                     $           49,109   $         43,043

   Accounts Payable (Notes 6 and 12)                                223,265              198,662
   Military Retirement Benefits and Other
      Employment Benefits (Note 7)                              538,032,547          537,397,092
   Benefits Due and Payable (Notes 5 and 7)                         604,664              762,163
TOTAL LIABILITIES                                           $   538,909,585      $   538,400,960

NET POSITION

   Cumulative Results of Operations                             (453,467,941)        (477,660,055)
TOTAL NET POSITION                                          $   (453,467,941)    $   (477,660,055)

TOTAL LIABILITIES AND NET POSITION                          $     85,441,644     $     60,740,905



The accompanying notes are an integral part of these
statements.




                                                       21
___________________________________________ Principal Statements



                                     Department of Defense
                          DoD Medicare-Eligible Retiree Health Care Fund
                                STATEMENTS OF NET COST
                               For the Years Ended September 30
                                        (In Thousands)


                                                            2006               2005

    PROGRAM COSTS
       Gross Costs                                 $         7,610,604     $    39,976,250
        (Less: Intragovernmental Earned Revenue)           (31,802,718)        (28,412,396)

      Net Program Costs                            $       (24,192,114)    $   11,563,854


    Net Cost of Operations                         $       (24,192,114)    $   11,563,854




The accompanying notes are an integral part of
these statements.




                                                   22
___________________________________________ Principal Statements


                                          Department of Defense
                               DoD Medicare-Eligible Retiree Health Care Fund
                              STATEMENTS OF CHANGES IN NET POSITION
                                    For the Years Ended September 30
                                             (In Thousands)


                                                                   2006                2005

CUMULATIVE RESULTS OF OPERATIONS
   Beginning Balances                                       $     (477,660,055)   $   (466,096,201)

       Budgetary Financing Sources                          $                0    $              0
       Other Financing Sources                                               0                   0
    Total Financing Sources                                 $                0    $              0


    Net Cost of Operations (+/-)                            $      (24,192,114)   $     11,563,854
    Net Change                                              $       24,192,114    $    (11,563,854)

    Cumulative Results of Operations                        $     (453,467,941)   $   (477,660,055)

    Unexpended Appropriations, Beginning Balance            $                0    $              0
      Budgetary Financing Sources                                            0                   0
    Total Unexpended Appropriations                         $                0    $              0


   Net Position                                             $     (453,467,941)   $   (477,660,055)




The accompanying notes are an integral part of these
statements.




                                                       23
___________________________________________ Principal Statements


                                             Department of Defense
                                  DoD Medicare-Eligible Retiree Health Care Fund
                                  STATEMENTS OF BUDGETARY RESOURCES
                                       For the Years Ended September 30
                                                (In Thousands)


                                                                           2006                2005

BUDGETARY RESOURCES
  Unobligated balance, brought forward, October 1:                 $              97,212   $      206,625
   Budget Authority:
         Appropriation                                             $        31,528,510     $    28,128,834
         Subtotal                                                  $        31,625,722     $    28,335,459
   Temporarily not available pursuant to Public Law                        (24,549,875)        (21,839,520)
  Total Budgetary Resources                                        $         7,075,847     $     6,495,939

STATUS OF BUDGETARY RESOURCES
   Obligations incurred:
         Direct                                                    $         7,075,847     $     6,398,727
         Subtotal                                                  $         7,075,847     $     6,398,727
   Unobligated balance:
         Apportioned                                               $                 0     $        97,212
         Subtotal                                                  $                 0     $        97,212
   Unobligated Balance Not Available                               $                 0     $             0
  Total Status of Budgetary Resources                              $         7,075,847     $     6,495,939

CHANGE IN OBLIGATED BALANCE
   Obligated Balance, net
         Unpaid obligations, brought forward October 1             $           387,881     $       262,058
         Total unpaid obligated balance, net                       $           387,881     $       262,058
   Obligations incurred net (+/-)                                  $         7,075,847     $     6,398,727
   Less: Gross Outlays                                                      (7,066,556)         (6,272,905)
   Obligated Balance, Net - end of period
         Unpaid Obligations                                                   397,172             387,880
  Total unpaid obligated balance, net, end of period               $          397,172      $      387,880

NET OUTLAYS
   Net Outlays:
        Gross Outlays                                              $         7,066,556     $     6,272,905
        Less: Distributed Offsetting Receipts                              (31,802,719)        (28,379,426)

  Total Outlays                                                    $      (24,736,163)     $   (22,106,521)



The accompanying notes are an integral part of these statements.




                                                      24
___________________________________________ Principal Statements

                                     DoD Medicare-Eligible Retiree Health Care Fund
                                           STATEMENTS OF FINANCING
                                          For the Years Ended September 30
                                                   (In Thousands)
                                                                                 2006               2005

RESOURCES USED TO FINANCE ACTIVITIES
     Budgetary Resources Obligated
       Obligations incurred                                           $           7,075,847    $     6,398,727
       Less: Offsetting receipts                                                (31,802,719)       (28,379,426)
       Net Obligations                                                $         (24,726,872)   $   (21,980,699)


        Other Resources                                               $                   0    $             0

    Total resources used to finance activities                        $         (24,726,872)   $   (21,980,699)

RESOURCES USED TO FINANCE ITEMS NOT PART OF
   THE NET COST OF OPERATIONS
Change in budgetary resources obligated for goods, services, and
benefits ordered but not yet provided:
            Undelivered Orders                                        $              21,378    $       (13,343)

    Resources that fund expenses recognized in prior periods                              0                  0

Total resources used to finance items not part of the net cost of
operations                                                            $              21,378    $       (13,343)

Total resources used to finance the net cost of operations            $         (24,705,494)   $   (21,994,042)

COMPONENTS OF THE NET COST OF OPERATIONS THAT
  WILL NOT REQUIRE OR GENERATE RESOURCES IN THE
  CURRENT PERIOD
   Components Requiring or Generating Resources in Future Periods:
       Other                                                          $            477,956     $   33,594,104

 Total components of Net Cost of Operations that will require or
generate resources in future periods                                  $            477,956     $   33,594,104

        Components not Requiring or Generating Resources:
           Other (+/)
                   Trust Fund Exchange Revenue                        $                   0    $       (32,970)
                   Other                                                             35,424             (3,238)
        Total components of net cost of operations that will not
          require or generate resources in the current period         $            513,380     $   33,557,896

Net Cost of Operations                                                $         (24,192,114)   $   11,563,854

The accompanying notes are an integral part of these statements.




                                                         25
           DoD
MEDICARE-ELIGIBLE RETIREE
      HEALTH CARE
          FUND



          NOTES
         TO THE
  PRINCIPAL STATEMENTS




            26
_______________________________Notes to the Principal Statements

                   DoD MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                         NOTES TO THE PRINCIPAL STATEMENTS
                    FOR THE YEARS ENDED SEPTEMBER 30, 2006 AND 2005

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation. The Department of Defense (DoD) Medicare-Eligible Retiree Health Care Fund (the
Fund) was authorized by Public Law (PL) 106-398 for the accumulation of funds to finance the liabilities of the
DoD and the uniformed services health care programs for specific Medicare-eligible beneficiaries. The Fund began
operations effective October 1, 2002.
These financial statements report the financial position and results of operations for the Fund, as required by the
Chief Financial Officers (CFO) Act of 1990, expanded by the Government Management Reform Act (GMRA) of
1994, and other appropriate legislation. The financial statements have been prepared from the books and records of
the Trust Fund Accounting Division, Accounting Directorate, Defense Finance and Accounting Service (DFAS), in
accordance with the requirements of Office of Management and Budget (OMB) Circular A-136, “Financial
Reporting Requirements,” and accounting principles generally accepted in the United States of America. The
Fund’s financial statements are prepared by DFAS in addition to the financial reports, pursuant to OMB directives,
which are used to monitor and control budgetary resources within the Fund. More detailed explanations of these
financial statement elements are discussed in applicable footnotes.
B. Mission of the Reporting Entity. The mission of the Fund is to accumulate funds in order to finance, on an
actuarially sound basis, liabilities of the DoD and the uniformed services health care programs for specific
Medicare-eligible beneficiaries.

C. Appropriations and Funds. The Fund was authorized by the “Floyd D. Spence National Defense Authorization
Act for Fiscal Year 2001.” The purpose of the Fund is to pay the costs of all Military Service and uniformed
services retiree health care programs for the benefit of members or former members of a participating service who
are entitled to retired or retainer pay and are Medicare-eligible, their dependents who are Medicare-eligible, and
their survivors who are Medicare-eligible.
The Fund’s appropriations are designated special funds. These appropriations are used to fund the daily execution
of the Fund’s mission. The Fund is classified as a special fund and uses both receipt and expenditure accounts. The
Fund’s U.S. Treasury symbol is 97X5472.
D. Basis of Accounting. Under authority of the CFO Act of 1990, the Federal Accounting Standards Advisory
Board (FASAB) was established to recommend Federal Accounting Standards to its three principal members, the
Secretary of the Treasury, the Director of the OMB, and the Comptroller General of the United States. The
Statements of Federal Financial Accounting Standards (SFFAS) have been issued by the FASAB, following
procedures adopted by the FASAB principles. Some SFFAS have deferred effective dates.
In April 2000, the American Institute of Certified Public Accountants (AICPA), in its Statement on Auditing
Standards (SAS) No. 69, “The Meaning of Present Fairly in Conformity with Generally Accepted Accounting
Principles (GAAP) in the Auditor’s Report,” as amended by SAS No. 91, “Federal GAAP Hierarchy,” established
the following hierarchy of accounting principles for federal government entities.

        (A)          FASAB Statements and Interpretations plus AICPA and Financial Accounting Standards
                     Board (FASB) pronouncements if made applicable to Federal governmental entities by a
                     FASAB Statement or Interpretation.
        (B)          FASAB Technical Bulletins and the following pronouncements, if specifically made
                     applicable to federal governmental entities by the AICPA and cleared by the FASAB: AICPA
                     Industry Audit and Accounting Guides and AICPA Statements of Position.
        (C)          AICPA Accounting Standards Executive Committee (ACSEC) Practice Bulletins, if
                     specifically made applicable to federal governmental entities and cleared by the FASAB and
                     Technical Releases of the Accounting and Auditing Policy Committee of the FASAB.



                                                        27
_______________________________Notes to the Principal Statements

         (D)          Implementation guides published by the FASAB staff and practices that are widely recognized
                      and prevalent in the federal government.

In the absence of a pronouncement covered by Federal GAAP or another source of established accounting
principles, the auditor of a federal government entity may consider other accounting literature, depending on its
relevance to the circumstance. When directed by OMB, through OMB Circular A-136, generally accepted
accounting principles in the United States of America serve as authoritative guidance for federal agencies in
preparing reports that are addressed within OMB Circular A-136.
E. Revenues and Other Financing Sources. The FY 2005 Defense Authorization Act assigned Treasury, vice the
Uniformed Services, the responsibility of paying normal cost contributions into the Fund, starting in FY 2006. In
FY 2006, the beginning of fiscal year Treasury contribution also included the total normal cost amount for the year,
determined based on Board-approved per capita normal cost rates and expected average force strengths for the
Uniformed Services. Thus, the Uniformed Services no longer make monthly contributions into the Fund. In FY
2005, the financing sources for the Fund were provided primarily through an annual unfunded actuarial liability
payment from Treasury, monthly contributions from the Military Services and the other Uniformed Services (United
States Coast Guard, the National Oceanic and Atmospheric Administration, and the United States Public Health
Service), and interest earned on investments. The monthly contributions were calculated by multiplying the
monthly per capita rates (full time and part time) provided by the DoD Office of the Actuary by the reported end
strength for the most recently reported month. Contributions are recognized when due to the Fund.

F. Recognition of Expenses. For financial reporting purposes, the Fund recognizes benefit expenses in the period
incurred. As of the 3rd Quarter, FY 2006, payments are now made in the quarter that the Military Treatment Facility
(MTF) expenses will be incurred. Previously, during the interim quarters, prior to the last quarter, advances were
made for the upcoming quarter’s MTF expenses. Those expenses were recognized at the outset of each quarter and
recorded as an advance to the MTFs. There were no advances recorded at September 30, 2006 or September 30,
2005, and there will be no advances recorded in any future quarter.
G. Accounting for Intragovernmental Activities. The Fund purchases and redeems non-marketable market-based
securities issued by the United States Treasury, Bureau of Public Debt. Non-marketable market-based securities
include Treasury bills, notes, bonds, Treasury Inflation-Protected Securities (TIPS), and overnight certificates.

H. Funds with the U.S. Treasury. The U.S. Treasury allows the Fund to be fully invested. Therefore, the Fund
Balance with Treasury (FBWT) may be zero during various quarters of the fiscal year.

The Fund’s financial resources are maintained in U.S. Treasury Accounts. DFAS processes all Fund receipts and
adjustments. DFAS prepares monthly reports, which provide information to the U.S. Treasury on transfers and
deposits.

In addition, DFAS submits reports to Treasury, by appropriation, on collections received. Treasury then records
this information to the FBWT account maintained in the Treasury system. Differences between the Fund recorded
balance in the FBWT account and the Treasury FBWT are reconciled.
I. Accounts Receivable. As presented in the Balance Sheets, accounts receivable includes accounts, claims, and
refunds receivable from the public as well as intragovernmental receivables due from the Uniformed Services.
Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by the
Fund. The DoD does not recognize an allowance for estimated uncollectible amounts due from intragovernmental
receivables.
 J. Investments in U.S. Department of Treasury Securities. Intergovernmental securities represent non-marketable
market-based securities issued by the U.S. Department of Treasury, Bureau of Public Debt. These securities are
redeemable at market value exclusively through the Federal Investment Branch of Treasury. These non-marketable
market-based Treasury securities are not traded on any securities exchange, but mirror the prices of marketable
securities with similar terms. Investments are recorded at amortized cost on the Balance Sheet. Material disclosures
are provided at Note 3.
K. Net Position. Net position consists of unexpended appropriations and cumulative results of operations.



                                                         28
_______________________________Notes to the Principal Statements

L. Comparative Data. For comparative purposes, the financial statements display both FY 2005 and 2006 data.
Certain FY 2005 balances have been reclassified to conform to the FY 2006 presentation. Also, the presentation of
the FY 2005 data has been updated for the changes in presentation required in conjunction with the OMB Circular
A-136, “Financial Reporting Requirements,” updated and revised in July 2006.

M. Estimates. The preparation of financial statements in conformity with accounting principles generally accepted
in the United States of America requires management to make estimates and assumptions that affect the reported
amounts of assets, liabilities and changes therein, and the actuarial present value of accumulated plan benefits at the
date of the financial statements. Actual results could differ from those estimates.

N. Actuarial Information. The Medicare-Eligible Retiree Health Care Fund financial statements present the
unfunded actuarial liability determined as of the end of the fiscal year based on population information as of the
beginning of the year and updated to the end of the year using accepted actuarial techniques. The “projected benefit
obligation” method is used as required by SFFAS No. 5, “Accounting for Liabilities of the Federal Government.”

NOTE 2. FUND BALANCES WITH TREASURY

                                                                          FY 2006                     FY 2005
 ($ in Thousands)

 Fund Balances:
   Trust Funds                                                 $                 37,855     $                 5,000

 Status of Fund Balance with Treasury
    Unobligated Balance
       Available                                               $                      0     $                97,212
       Unavailable                                                           84,268,709                           0
    Obligated Balance not yet Disbursed                                         397,173                  60,106,716
    Non-FBWT Budgetary                                                      (84,628,027)                (60,198,928)
    Total                                                      $                 37,855     $                 5,000

Other Information

Fund Balances. The Fund Balance with Treasury (FBWT) increased $32.9 million, which represents a collection
from the Army Reserves on the last business day of September 2006. These funds, which were an underpayment of
the Army Reserves’ FY 2005 normal cost payment, remained in the FBWT because they were received too late to
invest. Generally, the FBWT is maintained at approximately $5 million to ensure that sufficient funds are available
to cover estimated daily disbursements with the remaining funds invested in non-marketable market-based
securities.

Status of Fund Balance. The Office of Management and Budget advised that certain U.S. Standard General Ledger
accounts are inconsistent with the budget presentations for certain Special and Trust Fund Receipts. Consequently,
the unobligated fund balance brought forward to FY 2005 had to be reclassified as receipts unavailable or precluded
from obligation for the DoD Medicare-Eligible Retiree Health Care Fund. The amounts of Unobligated Balances,
Obligated Balance not yet Disbursed, and Non-FBWT Budgetary Accounts were impacted by the OMB-directed
restatement for FY 2005. Beginning with September 30, 2005, year-end reporting, the unobligated unavailable
balance is no longer visible on the Statement of Budgetary Resources.




                                                          29
_______________________________Notes to the Principal Statements

NOTE 3. INVESTMENTS

                                                                            FY 2006
 ($ in Thousands)


                                                                          Amortized                                  Market
                                                   Amortization           (Premium)/            Investments,          Value
                                   Cost              Method                Discount                 Net             Disclosure

 Intragovernmental
      Securities:

 Non-Marketable,
     Market-Based           $   85,730,555           Effective      $        (1,123,332)    $    84,607,223    $        82,962,706
                                                      Interest
      Subtotal              $   85,730,555                          $        (1,123,332)    $    84,607,223    $        82,962,706
 Interest Receivable               787,763                                            0             787,763                787,763
 Total                      $   86,518,318                          $        (1,123,332)    $    85,394,986    $        83,750,469



                                                                            FY 2005


                                     Cost          Amortization           Amortized                                  Market
                                                    Method                (Premium)/            Investments,          Value
                                                                           Discount                 Net             Disclosure
 Intragovernmental
      Securities:

 Non-Marketable,
    Market-Based            $   60,873,720           Effective      $          (684,873)    $    60,188,847    $        60,085,976
                                                      Interest
 Subtotal                   $   60,873,720                          $          (684,873)    $    60,188,847    $        60,085,976
 Accrued Interest                  502,832                                            0             502,832                502,832
 Total                      $   61,376,552                          $          (684,873)    $    60,691,679    $        60,588,808

Intragovernmental securities represent nonmarketable market-based securities issued by the U.S. Department of
Treasury, Bureau of Public Debt. Treasury bills are short-term securities with maturities of one year or less and are
purchased at a discount. Non-marketable market-based securities include Treasury bills, notes, bonds, Treasury
Inflation-Protected Securities (TIPS), and overnight certificates.

Treasury notes have maturities of at least one year, but not more than ten years, and are purchased at a discount or
premium. Treasury bonds are long-term securities with maturity terms of ten years ore more and are purchased at
either a discount or premium. TIPS are fixed-rate instruments designed to protect against inflation and the principal
amount is indexed to the consumer price index (CPI) by adjusting the current CPI to the CPI at issuance; as inflation
increases, so does the principal amount and the coupon.




                                                         30
_______________________________Notes to the Principal Statements

The Fund records investments at book value, representing amortized cost. The Fund recognizes the amortization of
discounts and premiums using the effective interest method. The Fund receives interest on the value of its non-
marketable market-based securities from Treasury on a semi-annual basis for U.S. Treasury bonds and notes.

Investments increased from $60.2 billion in FY 2005 to $84.6 billion in FY 2006 because of a cumulative positive
cash flow. The investments listed above are presented at Amortized Cost and Market Value as of September 30,
2006, and 2005. Listed below are the Par Values of the U.S. Treasury Securities referenced above:


        Par Value                             FY 2006                      Par Value                      FY 2005
 ($ in Thousands)                                                     ($ in Thousands)
 Bonds                              $             2,000,000           Bonds                       $          2,000,000
 Notes                                           19,384,102           Notes                                 22,384,102
 Overnights                                       4,841,189           Overnights                             3,499,832
 TIPS                                            46,514,635           TIPS                                  24,989,166
 Total                              $            72,739,926           Total                       $         52,873,100

Note: Treasury Inflation-Protected Securities, or TIPS, provide protection against inflation. The principal of a
TIPS increases with inflation and decreases with deflation, as measured by the CPI. When a TIPS matures,
Treasury pays the adjusted principal or original principal, whichever is greater.


NOTE 4. ACCOUNTS RECEIVABLE

                                                                      FY 2006
 ($ in Thousands)

                                          Gross                    Allowance for              Accounts Receivable
                                        Amount Due            Estimated Uncollectibles               Net

 Intragovernmental Receivables     $                 0   $                           0    $                        0
 Nonfederal Receivables
 (from the Public)                               9,016                            (213)                       8,803
 Total Accounts Receivable         $             9,016   $                        (213)   $                   8,803

                                                                      FY 2005
 ($ in Thousands)

                                          Gross                    Allowance for              Accounts Receivable
                                        Amount Due            Estimated Uncollectibles               Net

 Intragovernmental Receivables     $            32,970   $                           0    $                  32,970
 Nonfederal Receivables
 (from the Public)                              11,604                            (348)                      11,256
                                   $            44,574   $                        (348)   $                  44,226




                                                         31
_______________________________Notes to the Principal Statements

Other Information ($ in thousands, unless otherwise noted)
Intragovernmental

The $32.9 million in intragovernmental receivables recorded in FY 2005 was a result of the Army Reserves
underpaying its normal cost contributions for FY 2005. This receivable was subsequently paid in full to the Fund
during FY 2006.

Non-Federal

Non-Federal Accounts Receivable, Net, decreased $2.5 million (22%) primarily due to the aggressive collection
efforts by the TRICARE Dual-Eligible Fiscal Intermediary Contract (TDEFIC) contractor, the Wisconsin Physician
Services, from FY 2005 through FY 2006. This debt pertained to the transfer of responsibility for processing all
TRICARE for Life dual-eligible claims from the Managed Care Support contractors to the TRICARE Dual-Eligible
Fiscal Intermediary Contract (TDEFIC) contractor. These receivables represent expected collections of claim
overpayments made to the Medicare-eligible beneficiaries by contractors and expected collections of co-payments
for prescriptions.

The Allowance for Estimated Uncollectibles is calculated as a percentage (three percent) of receivables from all
sources. The majority of the receivables are held by the TDEFIC. The allowance for uncollectible accounts is
based on an analysis of the actual uncollectible amounts experienced during FY 2006 as well as the 4th Quarter, FY
2005.


NOTE 5. LIABILITIES COVERED AND NOT COVERED BY BUDGETARY RESOURCES

                                                                      FY 2006                      FY 2005
 ($ in Thousands)




 Nonfederal Liabilities:
 Military Retirement Benefits and Other Employment-
  Related Actuarial Liabilities (Note 7)                     $           453,763,838    $             477,581,045

 Benefits Due and Payable                                                    604,664                      762,163
 Total Nonfederal Liabilities                                $           454,368,502    $             478,343,208

 Total Liabilities Not Covered by Budgetary Resources        $           454,368,502    $             478,343,208

 Total Liabilities Covered by Budgetary Resources            $            84,541,083    $              60,057,752

 Total Liabilities                                           $           538,909,585    $             538,400,960

Total Liabilities Covered by Budgetary Resources increased $24,483,331 in FY 2006 and the Liabilities Not
Covered by Budgetary Resources decreased $23,974,706 in FY 2006 primarily due to the increase in the availability
of assets to pay benefits to the Medicare-eligible beneficiaries.




                                                        32
_______________________________Notes to the Principal Statements

NOTE 6. ACCOUNTS PAYABLE

 ($ in Thousands)
                                                                 FY 2006                     FY 2005

 Intragovernmental Payables                            $                  49,109   $                 43,043
 Non-Federal Payables
   (to the Public)                                                      223,265                     198,662
 Total Accounts Payable                                $                272,374    $                241,705

Intra-governmental payables increased from $43,043 in FY 2005 to $49,109 in FY 2006. These payables have
existed since the start of Medicare-Eligible Retiree Health Care Fund (MERHCF) operations in the 1st Quarter,
FY 2003. However, they have been commingled with the nonfederal payables (to the public) until the 3rd Quarter,
FY 2006. The MERHCF had been awaiting coordination of a procedure with the Defense Logistics Agency (DLA)
trading partner to ensure the MERHCF intragovernmental accounts payable would match DLA accounts receivable.
The FY 2005 amount has been adjusted to reflect the identification of intragovernmental payables. The increase of
$6,066 (14%) is attributable to both the increased use of the mail order pharmacy benefit by DoD Medicare-eligible
beneficiaries and the increased cost of pharmaceuticals.

Current Non-Federal Accounts Payable increased from $198,662 in FY 2005 to $223,265 in FY 2006. The
$223,265 in nonfederal payables includes $53.8 million in pharmaceutical collections. Due to the federal ceiling
price litigation, these collections are scheduled for repayment to drug companies in the 1st Quarter, FY 2007. The
repayment is to pharmaceutical manufacturers for discount payments they had made to the MERHCF in FY 2005
and FY 2006 in support of pharmaceuticals dispensed by retail pharmacies to Uniformed Services beneficiaries.
See additional discussion in Note 12.




                                                           33
_______________________________Notes to the Principal Statements

NOTE 7. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT BENEFITS

                                                                       FY 2006
 ($ in Thousands)
                                     Present       Assumed          (Less: Assets
                                     Value          Interest         Available to          Unfunded
 Major Program
 Activities                        of Benefits     Rate (%)         Pay Benefits)           Liability


 Medicare-Eligible
 Retiree Benefits            $    538,032,547         6.25%     $    (84,268,709)    $    453,763,838

 Total                       $    538,032,547                   $    (84,268,709)    $    453,763,838



                                                                       FY 2005
 ($ in Thousands)
                                     Present       Assumed          (Less: Assets
                                     Value          Interest         Available to          Unfunded
 Major Program
 Activities                        of Benefits     Rate (%)         Pay Benefits)           Liability


 Medicare-Eligible
 Retiree Benefits            $    537,397,092         6.25%     $    (59,816,047)    $    477,581,045

 Total                       $    537,397,092                   $    (59,816,047)    $    477,581,045


The Military Medicare-Eligible Retiree Benefits line displays a net increase of $635.5 million in the present value of
benefits (actuarial liability) from FY 2005 to FY 2006.

Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:

The actuarial liability reported above does not include $604.7 million and $762.2 million in incurred but not
reported liabilities as of September 30, 2006 and 2005, respectively. These liabilities are presented in the
accompanying balance sheets as Benefits Due and Payable, and are disclosed in Note 5, Liabilities Not Covered and
Covered by Budgetary Resources.

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Claims cost assumptions for direct care were based on actual experience; assumptions for purchased
care were developed from actual experience blended, in some cases, with prior assumptions derived from industry-
based cost estimates adjusted to approximate the military retired population.

Projected revenues into the Medicare-Eligible Retiree Health Care Fund, authorized by Chapter 56 of Title 10,
United States Code, come from three sources: interest earnings on Fund assets, annual “normal cost” contributions
(paid by Treasury at the beginning of the fiscal year), and annual unfunded liability amortization contributions (paid
by Treasury at the beginning of the fiscal year). The “normal cost” contributions are determined as per-capita
amounts (approved by the DoD Medicare-Eligible Retiree Health Care Board of Actuaries) times expected average
force strength. The unfunded liability amortization contribution represents the amortization of the unfunded



                                                         34
_______________________________Notes to the Principal Statements

liability for service performed before October 1, 2002, as well as the amortization of actuarial gains and losses that
have arisen since then. The Board determines the unfunded liability amortization contribution.
FY 2006

Actuarial cost method used for the MERHCF liability: Aggregate Entry-Age Normal
Assumptions: Interest Rate: 6.25%

Medical Trend:
Medicare Inpatient:                             5.6% from FY 2005 to FY 2006, ultimate rate of 6.25% in 2030
Medicare Outpatient:                            7.8% from FY 2005 to FY 2005, ultimate rate of 6.25% in 2030
Medicare Prescriptions (Direct Care):           8.1% from FY 2005 to FY 2006, ultimate rate of 6.25% in 2030
Medicare Prescriptions (Purchased Care):       11.2% from FY 2005 to FY2006, ultimate rate of 6.25% in 2030

The medical cost trend rate assumptions have a significant effect on the amounts reported. If the assumed rates
increased by one percentage point in each year, that would increase the actuarial present value of projected plan
benefits as of September 30, 2006, by 28%, or approximately $148.7 billion.

Market Value of Investments in Market-Based and Marketable Securities ($ in thousands): $82,962,706.

Change in MERHCF Actuarial Liability
 ($ in Thousands)

   a.     Actuarial Liability as of 09/30/05 (all Uniformed Services Medicare)         $     537,397,092
   b.     Expected Normal Cost for FY 2006                                                    11,043,720
   c.     Expected Benefit Payments for FY 2006                                               (7,461,017)
   d.     Interest Cost for FY 2006                                                           34,047,927
   e.     Actuarial (gains)/losses due to other factors                                       42,129,764
   f.     Actuarial (gains)/losses due to changes in trend assumptions                       (79,124,939)
   g.     Actuarial Liability as of 09/30/06 (all Uniformed Services Medicare)         $     538,032,547
   h.     Change in Actuarial Liability                                                $         635,455

($ in Thousands)

Each year the actuarial liability is expected to increase with normal cost, decrease with benefit payments, and
increase with the interest cost. In the absence of actuarial gains and losses or benefit changes, an increase of
$37,630,630 in the actuarial liability was expected during FY 2006 (line b plus line c plus line d).
The September 30, 2006, actuarial liability includes changes due to new assumptions and actuarial experience. The
actuarial gain due to new medical trend assumptions is $(79,124,939) (line f). The actuarial gains and losses due to
other factors (net $42,129,764, line e) includes new population data, other actuarial experience being different from
assumed and actuarial assumption changes other than the change in trend assumptions.




                                                          35
_______________________________Notes to the Principal Statements

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2006, liability ($ in Thousands) is:

 DoD                                                                        $    526,295,514
 Coast Guard                                                                      10,545,121
 Public Health Service                                                             1,118,244
 NOAA                                                                                 73,668
 Total                                                                      $    538,032,547

FY 2006 Military Service contributions to the MERHCF ($ in Thousands) were:

 DoD                                                                        $     10,841,216
 Coast Guard                                                                         260,533
 Public Health Service                                                                34,477
 NOAA                                                                                  1,645
 Total                                                                      $     11,137,871

FY 2005

Actuarial Cost Method Used: Aggregate Entry-Age Normal Method.
Assumptions: Interest Rate: 6.25%

Medical Trend:
Medicare Inpatient:                           3.2% from FY 2004 to FY 2005, ultimate rate of 6.25% in 2029
Medicare Outpatient:                          5.6% from FY 2004 to FY 2005, ultimate rate of 6.25% in 2029
Medicare Prescriptions (Direct Care):         0.0% from FY 2004 to FY 2005, ultimate rate of 6.25% in 2029
Medicare Prescriptions (Purchased Care):      5.2% from FY 2004 to FY 2005, ultimate rate of 6.25% in 2029

The medical cost-trend rate assumptions have a significant effect on the amounts reported. If the assumed rates
increased by one percentage point in each year, that would increase the actuarial present value of projected plan
benefits as of September 30, 2005, by 28 percent, or approximately $149.9 billion.

Market Value of Investments in Market-Based and Marketable Securities ($ in thousands): $60,085,976

Change in MERHCF Actuarial Liability
 ($ in Thousands)

  a.      Actuarial Liability as of 09/30/04 (all Uniformed Services Medicare)      $     504,073,807
  b.      Expected Normal Cost for FY 2005                                                 10,613,753
  c.      Expected Benefit Payments for FY 2005                                            (6,546,888)
  d.      Interest Cost for FY 2005                                                        31,629,776
  e.      Actuarial (gains)/losses due to other factors                                   (14,902,660)
  f.      Actuarial (gains)/losses due to changes in trend assumptions                     12,529,304
  g.      Actuarial Liability as of 09/30/05 (all Uniformed Services Medicare)      $     537,397,092
  h.      Change in Actuarial Liability                                             $      33,323,285

($ in Thousands)

Each year the actuarial liability is expected to increase with normal cost, decrease with benefit payments, and
increase with the interest cost. In the absence of actuarial gains and losses or benefit changes, an increase of
$35,696,641 in the actuarial liability was expected during FY 2005 (line b plus line c plus line d). The
September 30, 2005, actuarial liability includes changes due to new assumptions and actuarial experience. The



                                                         36
_______________________________Notes to the Principal Statements

actuarial loss due to new medical trend assumptions is $12,529,304 (line f). The actuarial gains and losses due to
other factors (net $(14,902,660), line e) include new population data, other actuarial experience being different from
assumed, and actuarial assumption changes other than the change in trend assumptions.

The MERHCF liability includes Medicare liabilities for all Uniformed Services. The approximate breakout of the
September 30, 2005, liability ($ in thousands) is:

 DoD                                                                          $         526,082,475
 Coast Guard                                                                             10,176,676
 Public Health Service                                                                    1,066,976
 NOAA                                                                                        70,965
 Total                                                                        $         537,397,092

FY 2005 Military Service contributions to the MERHCF ($ in thousands) were:

 DoD                                                                          $            10,220,002
 Coast Guard                                                                                  236,749
 Public Health Service                                                                         32,053
 NOAA                                                                                           1,492
 Total                                                                        $            10,490,296


NOTE 8. FOOTNOTE DISCLOSURES RELATED TO THE STATEMENTS OF NET COST

 Intragovernmental Costs and Exchange Revenue
 ($ in Thousands)

                                                                      FY 2006                     FY 2005

 Intragovernmental Costs                                    $             2,280,871    $                 2,019,699
 Public Costs                                                             5,329,733                     37,956,551
 Total Costs                                                $             7,610,604    $                39,976,250

 Intragovernmental Earned Revenue                           $          (31,802,718)    $            (28,412,396)
 Public Earned Revenue                                                           0                            0
 Total Earned Revenue                                       $          (31,802,718)    $            (28,412,396)

 Net Cost of Operations                                     $          (24,192,114)    $                11,563,854




                                                         37
_______________________________Notes to the Principal Statements

The Intragovernmental Costs increased $261.1 million (13%) from FY 2005 to FY 2006. This change is
attributable to increased ambulatory pharmacy use and increases in actual costs per encounter for inpatient,
outpatient, and pharmacy care/services. In 3rd Quarter, FY 2006, the Fund began identifying Intragovernmental
payables for its pharmaceutical purchases separately. The FY 2005 Intragovernmental Costs have been adjusted to
reflect the costs related to the pharmaceutical purchases had this identification process been implemented in FY
2005.

The Public Costs decreased $32.6 billion (86%) from FY 2005, to FY 2006. This change is attributable to the net
effect of year-to-year changes in actuarial assumptions related to average medical costs, administrative costs, and
medical cost inflation.


 Earned Revenue for Program Costs
 ($ in Thousands)

                                                                      FY 2006                     FY 2005

 1. Uniformed Services Contribution                         $             11,137,871    $            10,523,266
 2. Annual Unfunded Liability Payment                                     16,612,000                 15,721,000
 3. Interest on Investments                                                4,052,847                  2,168,130
      Total                                                 $             31,802,718    $            28,412,396

Line 1: This line reflects the total contributions from the Military Services plus the U.S. Public Health Service, U.S.
Coast Guard, and National Oceanic Atmospheric Administration. The Uniformed Services contributions increased
$614.6 million from FY 2005 to FY 2006 due to an increase in normal cost contribution rates provided by the Board
of Actuaries.

Line 2: U.S. Treasury Annual Unfunded Liability Payment increased by $891.0 million in FY 2006 based on the
computation furnished by the Board of Actuaries.

Line 3: Interest on investments increased $1.9 billion from FY 2005 to FY 2006. This change is primarily due to
the large increase in Uniformed Services contributions that were paid annually in October rather than monthly
throughout FY 2006 and the compounding effect of higher rates of return since October 2005.


NOTE 9. FOOTNOTE DISCLOSURES RELATED TO THE STATEMENTS OF BUDGETARY
RESOURCES

Apportionment Categories. The Office of Management and Budget Circular No. A-136, section 9.27, specifically
requires disclosure of the amount of direct and reimbursable obligations incurred against amounts apportioned
under categories A (related to a specific period of time); B (related to a specific program or project); and exempt
from apportionment. As of September 30, 2006, the Medicare-Eligible Retiree Health Care Fund (MERHCF)
reported $1.5 billion in category B obligations and $4.2 billion in exempt from apportionment obligations. The
MERHCF reported no category A obligations. As of September 30, 2005, the MERHCF reported $6.3 billion in
category A obligations.

Permanent Indefinite Appropriation. Title 10, U.S. Code 1111 provides the MERHCF a permanent indefinite
appropriation with which to finance, on an actuarially sound basis, the liabilities of DoD’s uniformed services
retiree health care programs for Medicare-eligible beneficiaries. These funds are only available to pay for the costs
of the retiree health care program for all eligible beneficiaries of the MERHCF. Amounts that are not needed to pay
the current costs of the Fund may be invested in nonmarketable market-based securities purchased through the
Department of the Treasury.



                                                          38
_______________________________Notes to the Principal Statements

Use of Unobligated Balances of Budget Authority. The MERHCF’s unobligated balances of budget authority
represent the portion of trust fund receipts collected in the current fiscal year (1) that exceed the amount needed to
pay benefits or other valid obligations and (2) that exceed receipts temporarily precluded from obligation by law
due to a benefit formula or other limitation. The receipts, however, are assets of the MERHCF and are available for
obligations as needed in the future.

Intraentity Transactions. Intraentity transactions have not been eliminated because the statements are presented as
combined and combining.

Reconciliation Differences. The Department of the Treasury issues annual warrants that pay amortized payments
for the unfunded actuarial liabilities of the MERHCF. The MERHCF’s annual warrant for FY 2006 totaled
$16.6 billion. The Other Defense Organizations General Fund credits, and subsequently expends, this amount to the
MERHCF in accordance with OMB guidance. The OMB is aware, and approves, of this duplicate reporting. As a
result, $16.6 billion is duplicated on the DoD Agency-wide Statement of Budgetary Resources (SBR). As of
September 30, 2005, the MERHCF’s annual warrant was $15.7 billion, which was duplicated on the DoD Agency-
wide SBR for FY 2005.

In addition, the MERHCF reports Appropriations Received for contributions that the Army, Navy, and Air Force
pay. The Military Departments also include these amounts in their respective Appropriations Received. For
FY 2006, the MERHCF reported a total of $10.8 billion for the Military Departments, which is duplicated on the
DoD Agency-wide SBR. As of September 30, 2005, the MERHCF reported $10.2 billion in contributions from the
Military Departments, which was duplicated on the DoD Agency-wide SBR for FY 2005.


FOOTNOTE 10. DISCLOSURES RELATED TO THE STATEMENTS OF FINANCING

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods report unfunded
expenses that were incurred during FY 2006. The cumulative total of unfunded expenses from all fiscal years is
reported as “Liabilities Not Covered by Budgetary Resources” in Note 5.


NOTE 11. BENEFIT PROGRAM EXPENSE

 ($ in Thousands)
                                                                                   FY 2006               FY 2005
 1   Service Cost                                                            $     11,043,720     $     10,613,753
 2   Period Interest on the Benefit Liability                                      34,047,927           31,629,776
 3   Prior (or Past) Service Cost                                                           0                    0
 4   Period Actuarial (Gains) or Losses                                            42,129,764          (14,902,660)
 5   (Gains)/Losses Due to Changes in Medical Trend Assumptions                   (79,124,939)          12,529,304
 6   Total                                                                  $       8,096,472     $     39,870,173

The benefit program expenses provide components of the change in the actuarial liability from the previous fiscal
year to the current fiscal year. The actuarial liability is calculated using the components of benefit program
expenses as well as the expected benefit payments during the fiscal year. The actuarial liability at the end of the
fiscal year is equal to the liability at the end of the previous fiscal year plus the total benefit program expenses
minus the expected benefit payments during the current fiscal year.

The benefit program expense (BPE) includes normal (or service) cost, interest cost, and gains and losses. It
measures the change in the actuarial liability from one year to the next (excluding the impact of benefit payments).
The BPE for FY 2006 was less than the BPE for FY 2005 largely because of new medical trend assumptions
adopted by the DoD Medicare-Eligible Retiree Health Care Board of Actuaries (Board) for FY 2006, which led to a



                                                          39
_______________________________Notes to the Principal Statements

decrease in liabilities; whereas the new trend assumptions for FY 2005 increased liabilities (line 5). Every year,
there is also a “period actuarial gains or losses” component of BPE (line 4), which in FY 2006 increased liabilities,
reflecting the net of an increase due to new assumptions regarding plan participation and a small net increase due to
other assumptions and experience, offset by reductions due to new administrative cost assumptions and claims
experience. In FY 2005, this component was a net decrease, reflecting gains due to administrative cost assumptions
and certain assumptions related to claims costs, offset by net losses in other assumptions and experience.

The service cost components and interest cost components of the BPE are generally expected to increase each year.
However, actuarial gains and losses always occur; new assumptions are usually adopted each year; and benefit
changes are possible every year; hence, the BPE can vary by substantial amounts from year to year.

NOTE 12. OTHER DISCLOSURES

The FY 2005 Defense Authorization Act assigns Treasury, vice the Uniformed Services, the responsibility of
paying normal cost contributions into the Fund, starting in FY 2006.

The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2006 and 2005 includes
approximately $83 billion (15% of total) and $91 billion (17% of total), respectively, of amounts reflecting the
actuarial present value of the projected direct-care costs of benefits to be provided by the MTFs to eligible
participants in the Fund. Additionally, the reported amounts of program revenues and cost for the year ended
September 30, 2006, include approximately $4.0 billion and $1.7 billion, respectively, and for the year ended
September 30, 2005, include approximately $4.4 billion and $1.6 billion, respectively, of amounts related to the
direct-care costs. Such MTF-related amounts of direct-care costs are estimated by the Fund’s actuaries using data
extracted from various service-specific financial, personnel and workload systems within DoD. With respect to
extracted data, the MTFs do not have compliant, transaction-based accounting systems and therefore cannot report
the costs of an individual patient’s care.

During the year ended September 30, 2005, a misstatement of approximately $133 million was identified in the
amount of purchased care claims reported for the year ended September 30, 2004. Deficiencies in the controls over
the systems used to process the purchased care claims existed prior to September 30, 2004, and were uncorrected at
that date, resulting in an undetected backlog of unprocessed claims. The identified claims, aggregating $133
million, were re-submitted for processing during the year ended September 30, 2005, resulting in an overstatement
of 2005 reported claims The claims backlog was also inappropriately excluded from the data used in the actuarial
estimate of claims incurred but not reported recorded as a liability as of September 30, 2004. The impact of the
above misstatement on the estimate of claims incurred but not reported as of September 30, 2004 was estimated to
be a $133 million understatement.

However, uncertainties continued to exist during the year ended September 30, 2005, about the completeness of the
population of the aggregate unprocessed claims as of September 30, 2004, and the extent and timing of subsequent
reprocessing. Due to these data integrity concerns, the actuarial estimate of claims incurred but not reported as of
September 30, 2005, included a margin of conservatism. Analyses of claims information performed during the year
ended September 30, 2006, indicate it is probable that, through the passage of time, all claims that may have been
part of the backlog as of September 30, 2004, have been reprocessed. A retrospective analysis indicates that the
actuarial estimate of claims incurred but not reported as of September 30, 2005 was overstated by approximately
$215 million, with related impacts on recorded claims expense for the years ended September 30, 2006 and 2005.

Pharmaceutical Company Rebates for Retail Pharmacy Support:

The Veterans Health Care Act (VHCA) of 1992, codified at 38 U.S.C., 126, established federal ceiling prices (FCP)
of covered pharmaceuticals. In May, 2004, the VHCA was applied to the TRICARE Pharmacy Benefits Program,
specifically, for beneficiaries obtaining covered pharmaceuticals from retail pharmacies. The retail pharmacies
obtain the drugs they dispense at non-discounted prices. The mechanism for payment involved a “Dear
Manufacturer” letter sent to the pharmaceutical manufacturers. The letter required that these manufacturers
calculate a discount rate and pay refunds to DoD for covered drugs purchased at network pharmacies. The letter
demanded refunds as of September 30, 2004.


                                                         40
_______________________________Notes to the Principal Statements

The Coalition for Common Sense in Government Procurement requested legal review of that letter, and the VA
agreed to postpone enforcement pending judicial review. While enforcement was stayed during judicial review,
some manufacturers made voluntary refunds to DoD during this time period. As of August 31, 2006, the MERHCF
had received $23.6 million in FY 2005 and $30.2 million in FY 2006. These refunds are identified by fiscal year
and specific pharmaceutical manufacturer.

By decision dated September 11, 2006, the Court of Appeals for the Federal Circuit set aside the “Dear
Manufacturer” letter and, on procedural grounds, ruled against the government’s position in the federal drug pricing
litigation. As a result of the Court decision, TMA has been advised by counsel to suspend indefinitely the quarterly
refund invoicing to manufacturers involving network retail pharmacy drugs. The VA General Counsel has
requested the Department of Justice not to seek rehearing of the Court’s decision. Therefore, TMA General
Counsel has advised the MERHCF to reimburse any refunds received in FY 2005 and FY 2006. A nonfederal
payable to the public of $53.8 million has been established to reimburse affected pharmaceutical manufacturers
during the 1st Quarter, FY 2007. In accordance with 10 U.S.C. 1113(c)(2), transfers from the MERHCF must be
made no later than September 30, 2007 for FY 2005 refunds and no later than September 30, 2008 for FY 2006
refunds.


NOTE 13. SUBSEQUENT EVENTS

The FY 2007 National Defense Authorization Act (NDAA), as signed by the President on October 16, 2006,
included the several relevant sections concerning the MERHCF. Section 592 of the Conference Report, “Revision
in Government Contributions to Medicare-Eligible Retiree Health Care Fund,” excluded from the term “members of
the uniformed services on active duty” cadets at the United States Military Academy, the United States Air Force
Academy, or the Coast Guard Academy or Midshipmen at the United States Naval Academy. This change, other
things being equal, will reduce the Board of Actuaries annually calculated normal cost contribution and the health
care liability beginning with FY 2008.

Section 708(b) of the 2007 NDAA Conference Report directs the Secretary of Defense to transfer $186 million
from the unobligated balances of the National Defense Stockpile Transaction Fund to the MERHCF.

                                                     *****




                                                        41
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


  OTHER ACCOMPANYING
     INFORMATION




            42
      ___________________________Other Accompanying Information


                                              TABLE 1

                      MEDICARE-ELIGIBLE RETIREE HEALTH CARE FUND
                            ACTUARIAL STATUS INFORMATION
                                   SEPTEMBER 30, 2006

                                           ($ In Thousands)

                                                       September 30, 2006      September 30, 2005
1.   Present value of future benefits

     a. Current inactives                                     $330,842,715          $324,191,274
     b. Active duty personnel 1                               $160,999,865          $163,277,268
     c. Non-retired reservists                                $128,420,451          $135,775,752
     d. Total                                                 $620,263,031          $623,244,294

2.   Present value of future normal cost
     contributions                                            $(82,230,484)          $(85,847,202)

3.   Actuarial accrued liability                              $538,032,547          $537,397,092

4.   Assets 2                                                  $84,268,709           $(59,816,047)

5.   Unfunded accrued liability 3                             $453,763,838          $477,581,045




________________________________

1      The future benefits of active duty personnel who are projected to retire as reservists are
       counted on line 1-c.

2      The assets available to pay benefits are determined using the amortized cost method
       (book value) of valuation.

3      The unfunded accrued liability does not include $604.7 million and $762.2 million for the
       estimated Incurred But Not Reported (IBNR) liabilities as of September 30, 2006 and
       2005, respectively, as presented in the Balance Sheets as “Benefits Due and Payable,”
       and as discussed in Note 7, “Liabilities Not Covered and Covered By Budgetary
       Resources.”




                                                  43
          DoD
MEDICARE-ELIGIBLE RETIREE
   HEALTH CARE FUND


 INDEPENDENT AUDITORS’
       REPORTS




            44
                                     INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                                November 8,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/ CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE FOR HEALTH
                 AFFAIRS
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE
SUBJECT: Endorsement of the Qualified Opinion on the Fiscal Year 2006 DoD Medicare-
         Eligible Retiree Health Care Fund Financial Statements
         (Report NO.D-2007-0 17)

       The Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, assigns the Department of Defense Inspector General responsibility
for auditing the DoD Medicare-Eligible Retiree Health Care Fund (the Fund) Financial
Statements. For FY 2006, we contracted with Deloitte & Touche, LLP (Deloitte & Touche) to
perform the audit.
        Qualified Audit Opinion. We concur with the Deloitte & Touche qualified opinion
dated November 1,2006. Deloitte & Touche opined that, except for amounts related to the
Fund's direct care costs and the impact of a September 30,2004, backlog of unprocessed
purchased care transactions, the financial statements and accompanying notes present fairly, in
all material respects, the Fund's financial position, net cost, changes in net position, budgetary
resources, and financing, as of September 30,2006 and 2005. Deloitte & Touche also opined
that the statements were presented in conformity with accounting principles generally accepted
in the United States of America.
       Deloitte & Touche qualified its opinion because it was unable to obtain patient-level data
from transaction-based accounting systems that support the costs of direct care provided by
DoD-managed Military Treatment Facilities. Deloitte & Touche also noted deficiencies in the
controls over the systems used to process the purchased care claims as of September 30,2004.
Additionally, Deloitte & Touche indicated that the actuarial estimate of claims incurred but not
reported (that is, medical claims that the Fund expects to pay) as of September 30,2005, was
overstated by approximately $2 15 million, with related impacts on recorded claims expenses for
the years ended September 30,2006 and 2005.
        Report on Internal Controls. Deloitte & Touche concurrently issued a report on the
internal control over financial reporting and compliance with laws and regulations as part of the
audit of the Fund's FY 2006 financial statements. We concur with the Deloitte & Touche
internal control report.
       Financial Reporting. The Deloitte & Touche report on internal controls concluded that
the Fund's financial management system did not meet the requirements o Office of Management
and Budget Circular A- 127, "Financial Management Systems," July 23, 1993, with respect to
maintaining consistent internal control over data entry, transaction processing, and reporting.
Deloitte & Touche reported the following weaknesses.




                                                  45
      The actuarial liability for Medicare-eligible retiree benefits includes the projected value
      of direct care costs in today's dollars. Direct care costs are based on data extracted from
      various noncompliant systems that are not transaction based.
      The Military Treatment Facility-level health care cost data are based on budget execution
      processes rather than accrual-based accounting. There is insufficient evidence that
      appropriate and consistent cut-off of accounting activity occurs at the Military Treatment
      Facility level. As a result, some transactions may not be recorded in the correct
      accounting period.
      The accuracy and completeness of the data files provided to the Office of the Actuary
      (the Actuary) for determining the h d s incurred but not reported liability were impacted
      by a backlog of unprocessed purchased care claims with an aggregate value of $133
      million as of September 30, 2004. However, uncertainties exist about the completeness
      of the population of the aggregate unprocessed claims as of September 30,2004, and the
      extent and timing of subsequent reprocessing of the claims. A retrospective analysis
      indicated that the actuarial estimate of claims incurred but not reported as of September
      30,2005, was overstated by approximately $2 15 million. The Fund's management was
      unable to provide Deloitte & Touche complete information to identify a complete
      population of the claims transactions backlog as of September 30,2004, and all
      transaction details necessary to assess the complete budgetary and proprietary accounting
      impacts on the FY 2004,2005, and 2006 financial statements.
      The Fund's financial management improvement initiatives have not been finalized for all
      Services and implemented at all Military Treatment Facilities.
      Computer processing locations that support the Fund had inadequate controls over data
      processing to ensure reliable processing of financial information within the related
      business cycles. The audit disclosed deficiencies in the design or operation of data
      processing controls related to security policies, procedures, configurations, business
      continuity arrangements, and network and database change management locations. These
      deficiencies could adversely affect the Fund's ability to record, process, and summarize
      the Fund's financial information in accordance with all appropriate requirements.
       Compliance with Laws and Regulations. Deloitte & Touche performed tests that
disclosed noncompliance with certain provisions of the following laws and regulations.
       The Fund's data were processed on Electronic Data Processing systems that did not
       comply with Office of Management and Budget Circular A-1 27, "Financial Management
       Systems."
       Although the general ledger system complied with the U.S. Government Standard
       General Ledger, it was not transaction-based or derived from an integrated financial
       system.
       The financial management system did not comply substantially with Office of
       Management and Budget Circular A- 130, "Management of Federal Information
       Resources," November 28,2000.
       Collectively, the Fund did not fully comply with Office of Management and Budget
       Circulars A- 123, "Management's Responsibility for Internal Control," December 2 1,
       2004, and A-127, "Financial Management Systems," and the Federal Managers'
       Financial Integrity Act.
                                                46
    Noncompliance with these laws and regulations could have a direct and material effect on the
    determination of financial statement amounts. Office of Management and Budget Bulletin No.
'
    06-03, "Audit Requirements for Federal Financial Statements," August 23,2006, requires that
    test results be reported if noncompliance with certain laws and regulations occurs.
        Audit Responsibilities. We were responsible for obtaining reasonable assurance that the
    principal statements were presented fairly and free of material misstatement, in conformity with
    accounting principles generally accepted in the United States.
        To fulfill our oversight responsibilities for the contract with Deloitte & Touche, we complied
    with government auditing standards, Office of Management and Budget Bulletin No. 06-03, and
    the "GAOPCIE Financial Audit Manual," July 2004. Specifically, we evaluated the nature,
    timing, and extent of the work; monitored progress throughout the audit; met with partners and
    staff members of Deloitte & Touche; reviewed the key judgments; met with officials of the
    Fund; performed independent tests of the accounting records; and performed other procedures
    appropriate in the circumstances.
           We appreciate the courtesies extended to the audit team. Questions should be directed to
    Mr. James L. Kornides (614) 75 1-1400 ext. 21 1 or Mr. Mark Starinsky (614) 75 1-1400 ext. 23 1.




                                         pa&. Granetto, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service




                                                     47
                                                                                  Deloitte & Touche LLP
                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                   USA

                                                                                  Tel: 703-251-1000
                                                                                  Fax: 703-251-3400
                                                                                  www.us.deloitte.com


INDEPENDENT AUDITORS’ REPORT


To the Inspector General of the
 Department of Defense


We have audited the accompanying balance sheets of the Department of Defense (“DoD”)
Medicare-Eligible Retiree Health Care Fund (the “Fund”) as of September 30, 2006 and 2005,
and the related statements of net cost, changes in net position, budgetary resources and
financing for the years then ended. These financial statements are the responsibility of the
Fund’s management. Our responsibility is to express an opinion on these financial statements
based on our audits.

Except as discussed in the following paragraphs, we conducted our audits in accordance with
auditing standards generally accepted in the United States of America, the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States, and the requirements of Office of Management and Budget
(“OMB”) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. Our audits included
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion. An audit also includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements, assessing the accounting
principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audits provide a reasonable basis
for our opinion.

We were unable to obtain patient-level data from compliant, transaction-based accounting
systems in support of the costs of direct care provided by the DoD-managed Military Treatment
Facilities (MTFs). As discussed in Note 12 to the financial statements, the actuarial liability for
Medicare-eligible retiree benefits as of September 30, 2006 and 2005 includes approximately
$83 billion (15% of total) and $91 billion (17% of total), respectively, of amounts reflecting the
actuarial present value of the projected direct-care costs of benefits to be provided by the MTFs
to eligible participants in the Fund. Additionally, the reported amounts of program revenues and
cost for the year ended September 30, 2006, include approximately $4.0 billion and $1.7 billion,
respectively, and for the year ended September 30, 2005, include approximately $4.4 billion and
$1.6 billion, respectively, of amounts related to the direct-care costs. Such MTF-related
amounts of direct-care costs are estimated by the Fund’s actuaries using data extracted from
various service-specific financial, personnel and workload systems within DoD. With respect to
extracted data, the MTFs do not currently have compliant, transaction-based accounting
systems. While activity-based costing techniques are used to estimate the program costs
related to the MTFs, the costs being allocated cannot be related to specific appropriations, and


                                                48                             Member of
                                                                               Deloitte Touche Tohmatsu
To the Inspector General of the
Department of Defense


there is insufficient evidence that adequate controls exist and have been implemented to ensure
the completeness, validity, recording and cut-off of the costs reported. Additionally, there is
insufficient evidence that adequate controls exist and have been implemented to ensure the
timeliness and accuracy of the medical record coding processes at the MTFs, a significant
factor in the allocation processes. We were not able to satisfy ourselves as to the direct-care
component of the reported amount of the actuarial liability for Medicare-eligible retiree benefits
by other auditing procedures.

As discussed in Note 12 to the financial statements, during the year ended September 30,
2005, a misstatement of approximately $133 million was identified in the amount of purchased
care claims reported for the year ended September 30, 2004. Deficiencies in the controls over
the systems used to process the purchased care claims existed prior to September 30, 2004,
and were uncorrected at that date, resulting in an undetected backlog of unprocessed claims.
The identified claims, aggregating $133 million, were re-submitted for processing during the
year ended September 30, 2005, resulting in an overstatement of 2005 reported claims The
claims backlog was also inappropriately excluded from the data used in the actuarial estimate of
claims incurred but not reported recorded as a liability as of September 30, 2004. The impact of
the above misstatement on the estimate of claims incurred but not reported as of September 30,
2004 was estimated to be a $133 million understatement.

However, uncertainties continued to exist during the year ended September 30, 2005, about the
completeness of the population of the aggregate unprocessed claims as of September 30,
2004, and the extent and timing of subsequent reprocessing. Due to these uncertainties, the
actuarial estimate of claims incurred but not reported as of September 30, 2005, included a
margin of conservatism. Analyses of claims information performed during the year ended
September 30, 2006, indicate it is probable that, through the passage of time, all claims that
may have been part of the backlog as of September 30, 2004, have been reprocessed. A
retrospective analysis indicates that the actuarial estimate of claims incurred but not reported as
of September 30, 2005 was overstated by approximately $215 million, with related impacts on
recorded claims expense for the years ended September 30, 2006 and 2005.

We were not able to obtain sufficient details about the recorded transactions related to the
claims backlog necessary to determine the complete budgetary and proprietary accounting
impacts on the MERHCF financial statements for the years ended September 30, 2006 and
2005, beyond the estimated understatements and overstatements identified above, nor were we
able to satisfy ourselves by means of other auditing procedures.

In our opinion, except for the effects on the financial statements of (1) the amounts related to
the Fund’s direct-care costs, if any, as might have been determined to be necessary had we
been able to obtain sufficient evidence regarding the direct-care component of the actuarial
liability for Medicare-eligible retiree benefits; and (2) the complete population, and budgetary
and proprietary accounting impacts, of the claims backlog transactions existing as of September
30, 2004 and subsequently reprocessed; the accompanying financial statements present fairly,
in all material respects, the financial position of the DoD Medicare-Eligible Retiree Health Care
Fund as of September 30, 2006 and 2005, and its net cost, changes in net position, budgetary
resources and financing for the years then ended in conformity with accounting principles
generally accepted in the United States of America.

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The accompanying “Management’s Discussion & Analysis” and


                                                49
To the Inspector General of the
Department of Defense


“Other Accompanying Information,” are not required parts of the basic financial statements but
are supplementary information required by accounting principles generally accepted in the
United States of America, OMB Circular A - 136, Financial Reporting Requirements, and the
Federal Accounting Standards Advisory Board. This supplementary information is the
responsibility of the Fund’s management. We have applied certain limited procedures, which
consisted principally of inquiries of management regarding the methods of measurement and
presentation of the required supplementary information. However, we did not audit such
information and we do not express an opinion on it.

In accordance with Government Auditing Standards, we have also issued our report dated
November 1, 2006 on our consideration of the Fund’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
agreements and other matters. The purpose of that report is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance.
That report is an integral part of an audit performed in accordance with Government Auditing
Standards, and should be read in conjunction with this report in considering the results of our
audit.




November 1, 2006




                                                50
                                                                                  Deloitte & Touche LLP
                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                  USA

                                                                                  Tel: 703-251-1000
                                                                                  Fax: 703-251-3400
                                                                                  www.us.deloitte.com



INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING AND ON COMPLIANCE AND OTHER MATTERS BASED UPON THE AUDIT
PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS

To the Inspector General of the
 Department of Defense

We have audited the financial statements of the Department of Defense (“DoD”) Medicare-
Eligible Retiree Health Care Fund (the “Fund”) as of and for the year ended September 30,
2006, and have issued our report thereon dated November 1, 2006. We conducted our audit in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States, and the requirements of Office of Management
and Budget (“OMB”) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Fund’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial statements and not to provide an opinion on the internal control over
financial reporting. Accordingly, we do not express an opinion on internal control over financial
reporting. However, we noted certain matters involving the internal control over financial
reporting and its operation that we consider to be reportable conditions. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in our judgment, could adversely
affect the Fund’s ability to record, process, summarize and report financial data consistent with
the assertions of management in the financial statements.

Reportable conditions noted are described in the following paragraphs and include departures
from certain requirements of OMB Circular A-127, Financial Management Systems, which
incorporates by reference Circulars A-123, Management’s Responsibility for Internal Control,
and A-130, Management of Federal Information Resources, among other requirements.

During our audit of the Fund’s financial statements, we identified deficiencies related to the
internal control over the preparation, analysis, and monitoring of financial information to support
the efficient and effective preparation of financial statements. Because of the deficiencies
noted, we believe that the Fund’s financial management system does not meet the
requirements of an integrated financial management system as defined in OMB Circular A-127,
with respect to “consistent internal control over data entry, transaction processing and
reporting.” We also believe that the Fund is not in compliance with the system design
requirements sufficient to comply with internal and external reporting requirements, including, as
necessary, the requirements for financial statements prepared in accordance with the form and
content prescribed by OMB and reporting requirements prescribed by Treasury, and to monitor
the financial management system to ensure integrity of financial data.


                                                51
                                                                               Member of
                                                                               Deloitte Touche Tohmatsu
To the Inspector General of the
 Department of Defense


As defined in OMB Circular A – 127, “a financial management system encompasses automated
and manual processes, procedures, controls, data, hardware, software, and support personnel
dedicated to the operation and maintenance of system functions.” Such financial management
systems shall be designed to provide for effective and efficient interrelationship between
software, hardware, personnel, procedures, controls, and data contained within the systems.
These integrated systems shall have the following characteristics: (1) common data elements;
(2) common transaction processing; (3) consistent internal control over data entry, transaction
processing and reporting; and (4) efficient transaction entry.

With respect to system requirements in the area of financial reporting, OMB Circular A – 127
requires that an “agency financial management system shall be able to provide financial
information in a timely and useful fashion to (1) support management’s fiduciary role; (2) support
the legal, regulatory and other special management requirements of the agency; (3) support
budget formulation and execution functions; (4) support fiscal management of program delivery
and program decision making; (5) comply with internal and external reporting requirements,
including, as necessary, the requirements for financial statements prepared in accordance with
the form and content prescribed by OMB and reporting requirements prescribed by Treasury;
and (6) monitor the financial management system to ensure integrity of financial data.”

Our assessment is based upon various factors noted during our audit. For example, we noted
that:

   1. The actuarial liability for Medicare-eligible retiree benefits as of September 30, 2006 and
      2005, includes approximately $83 billion (15% of total) and $91 billion (17% of total),
      respectively, of amounts reflecting the actuarial present value of the projected direct care
      costs of benefits to be provided by the Military Treatment Facilities (“MTFs”), managed
      by the Services, to eligible participants in the Fund. Additionally, the reported amounts
      of program revenues and cost for the year ended September 30, 2006, include
      approximately $4.0 billion and $1.7 billion, respectively, and for the year ended
      September 30, 2005, include approximately $4.4 billion and $1.6 billion, respectively, of
      amounts related to the direct care costs.

       Such MTF-related amounts of direct care costs are estimated by the Fund’s actuaries
       and others using data extracted from various service-specific financial, personnel and
       workload systems within DoD. With respect to extracted data, the MTFs do not currently
       have compliant, transaction-based accounting systems, applying common and
       consistent business rules, in a manner envisioned by the DoD’s planned Standard
       Financial Information Structure (“SFIS”). While activity-based costing techniques are
       used to estimate the program costs related to the MTFs, the costs being allocated
       cannot be related to specific appropriations, and there is insufficient evidence that
       adequate controls exist and have been implemented to ensure the completeness,
       validity, recording and cut - off of the costs reported. Additionally, there is insufficient
       evidence that adequate controls exist and have been implemented to ensure the
       timeliness and accuracy of the medical record coding processes at the MTFs, a
       significant factor in the allocation processes.

       Therefore, the procedures in place to determine the allocated costs of direct care
       provided by the MTFs are not adequate to ensure presentation of the direct care costs in
       conformity with accounting principles generally accepted in the United States of
       America.


                                               52
To the Inspector General of the
 Department of Defense


       We continue to recommend the implementation of the necessary management control
       and reconciliation processes with respect to direct care, as well as the design of
       improved financial management information systems as part of the overall DoD business
       transformation efforts.

   2. The costs of health care provided directly by the DoD for Fund participants and
      beneficiaries represent significant input to the development of the actuarially determined
      health care liabilities of the Fund, as well to the determination of amounts contributed by
      the Services for their active duty participants. These costs are incurred in the multitude
      of Military Treatment Facilities (“MTFs”) managed by the Services in various locations.
      The Fund makes prospective payments to the Services based on estimates of these
      direct care costs in order to support the operations of the MTFs on an ongoing basis.

       The health care cost data from the MTFs provided for the estimation process is
       aggregated or derived from information in both financial and non-financial systems within
       the Services that have not been audited. The MTF–level data is based upon budget
       execution processes, rather than accrual-based accounting. There is insufficient
       evidence that appropriate and consistent cut-off of accounting activity occurs at the
       MTF-level. During 2006, the Fund had not yet implemented appropriate and sufficient
       levels of management control and reconciliation processes to ensure the adequacy and
       completeness of the data required for its financial reporting and actuarial valuation
       processes.

       We did note that the Fund performs annual retrospective reconciliation reviews of the
       MTF level-of-effort data, for the purposes of comparing the prospective payments
       provided to the MTFs for care of the Fund’s participants and beneficiaries, versus the
       results of the budget execution process. The results of the reconciliations are used in
       the determination of prospective budgetary requirements to support the MTFs’
       operations, as required by DoD Instructions.

       We understand that the Fund intends to develop a methodology using market rates for
       patient encounters for purposes of the determination and allocation of the prospective
       payments made to the MTFs, beginning in FY 2008. We also understand that the
       Fund’s intention is also to utilize market rates in the Office of the Actuary’s determination
       of the Fund’s direct care-related liabilities.

       We believe that the use of market rates in the actuarial valuation process may not be
       consistent with the requirements of accounting principles generally accepted in the
       United States of America unless and until it can be demonstrated that the Fund’s direct
       care liabilities are able to be settled in full at such market-based rates.

       We continue to recommend the implementation of the necessary management control
       and reconciliation processes with respect to direct care, as well as the design of
       improved financial management information systems as part of the overall DoD business
       transformation efforts.

   3. The actuarial determination of the Fund’s liability for incurred but not reported (“IBNR”)
      claims for purchased care for the Fund’s participants and beneficiaries relies on data
      files provided by the TRICARE Management Activity (“TMA”) of the Military Health
      System to the Office of the Actuary (“OOA”). During 2005, the accuracy and


                                                53
To the Inspector General of the
 Department of Defense


       completeness of the data files provided to the OOA were impacted by a backlog of
       purchased care claims aggregating $133 million that existed as of September 30, 2004.
       The backlog of claims was identified subsequent to September 30, 2004, and resulted
       from claims that had been submitted by the claims contractor, but which were not
       processed by TMA on a timely basis. As a result, the claims were inappropriately
       omitted from the FY 2004 financial statements, not only with respect to the impact on the
       determination of the IBNR liability, but also as FY 2004 claims expense, cash payments
       to the contractor, or accounts payable as of September 30, 2004.

       Uncertainties continued to exist during the year ended September 30, 2005, about the
       completeness of the population of the aggregate unprocessed claims as of
       September 30, 2004, and the extent and timing of subsequent reprocessing. Due to
       these uncertainties, the actuarial estimate of claims incurred but not reported as of
       September 30, 2005, included a margin of conservatism. A retrospective analysis
       indicates that the actuarial estimate of claims incurred but not reported as of
       September 30, 2005 was overstated by approximately $215 million, with related impacts
       on recorded claims expense for the years ended September 30, 2006 and 2005.

       The claims backlog occurred due to computer processing issues arising from a systems
       conversion process at TMA related to the TRICARE Encounter Data System (“TEDS”),
       as well as deficiencies in internal control. Certain of the claims backlog transactions
       were resubmitted for processing during FY 2005 and the claims expense was recorded
       at that time, along with the effect of the additional claims on the actuarial estimate for the
       liabilities for claims incurred but not reported.

       However, we were unable to obtain from TMA complete information to identify a
       complete population of the claims transactions backlog as of September 30, 2004, nor
       all transaction details necessary to assess the complete budgetary and proprietary
       accounting impacts on the FY 2004, 2005, and 2006 financial statements. TMA
       indicated that (1) the $133 million in claims identified in FY 2005 did not represent the
       complete population of affected transactions; (2) they declined to perform the necessary
       queries against the On-Line Data Source (“ODS”) database to provide transaction
       details for the claims transactions, (3) they are unable to provide any information
       regarding the subsequent processing of the affected batches; and (4) no analyses of the
       claims backlog transactions detail has been performed to evaluate the full financial
       statement impacts, either at the time the backlog issue was identified, nor subsequently.

       Thus, there continued to be insufficient information about the recorded transactions
       related to the claims backlog necessary to determine the complete budgetary and
       proprietary accounting impacts on the Fund’s financial statements for the years ended
       September 30, 2006 and 2005, beyond the estimated understatements and
       overstatements identified above. Subsequent analyses of claims information performed
       during the year ended September 30, 2006, indicate it is probable that, through the
       passage of time, all claims that may have been part of the backlog as of September 30,
       2004, have since been reprocessed. We also note that the Fund has implemented
       procedures to prevent a recurrence of an undetected claims transaction backlog.
       Therefore, we are not recommending any further corrective actions at this time.




                                                54
To the Inspector General of the
 Department of Defense


   4. Since 2005, the Fund has undertaken a number of improvement initiatives in connection
      with the DoD Financial Improvement and Audit Readiness (“FIAR”) process managed
      under the Office of the Under Secretary of Defense - Comptroller (“OUSD-C”). The
      initiatives are intended to address the necessary corrective actions with respect to the
      identified deficiencies in the direct care cost processes and medical record coding, as
      discussed above. From discussions with TMA and their support contractor, we
      understand that efforts have been undertaken to document and test certain direct care
      related reconciliation processes from the MTF level through to the financial statement
      level for the Services. However, as of September 30, 2006, the process and procedures
      have not yet been finalized for all Services nor deployed to all MTFs.

       We continue to recommend the implementation of the necessary management control
       and reconciliation processes with respect to direct care, as well as the design of
       improved financial management information systems as part of the overall DoD business
       transformation efforts.

   5. Certain general electronic data processing (“EDP”) controls at certain computer
      processing locations used by the Fund do not support the reliable processing of financial
      information within the related business cycles. Our review disclosed deficiencies in the
      design or operation of controls related to: (1) EDP security policies, procedures, and
      configurations, (2) business continuity arrangements; and (3) network and database
      change management activities, that could adversely affect the Fund’s ability to record,
      process, and summarize its financial information and protect sensitive data in
      accordance with all appropriate requirements.

       Because disclosure of detailed information about EDP weaknesses may further
       compromise controls, we are providing no further details here. Instead the specifics will
       be presented in a separate, limited distribution management letter.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of
the internal control over financial reporting would not necessarily disclose all matters in the
Fund’s internal control that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are also considered to be material
weaknesses. Of the reportable conditions noted above, the observations with respect to direct
– care costs discussed at items 1. and 2., and the observations with respect to the claims
backlog at item 3., are, in our judgment, material weaknesses.

With respect to internal control relevant to data that support reported performance measures on
page 6 of Management's Discussion and Analysis accompanying the financial statements, we
obtained an understanding of the design of significant internal control relating to the existence
and completeness assertions, as required by OMB Bulletin No. 06-03. Our procedures were not
designed to provide assurance on the internal control over reported performance measures and,
accordingly, we do not express an opinion on such control.




                                               55
To the Inspector General of the
 Department of Defense


Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Fund’s financial statements are
free of material misstatement, we perform tests of its compliance with certain provisions of laws
and regulations, contracts, and agreements, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws and
regulations specified in OMB Bulletin No. 06-03. However, providing an opinion on compliance
with those provisions was not an objective of our audit and accordingly, we do not express such
an opinion. The results of our tests disclosed instances of noncompliance or other matters that
are required to be reported under Government Auditing Standards and OMB Bulletin No. 06-03,
and that are described below.

   1. The EDP systems utilized by the Fund are not compliant with OMB Circular A-127,
      Financial Management Systems. The Circular requires that federal financial systems
      provide complete, reliable, consistent and useful information on a timely basis. Our
      procedures identified deficiencies in the design and operation of certain EDP controls
      that may increase the risk of unauthorized access, modification, or loss of sensitive
      programs and data which could compromise the ability of the systems to provide reliable
      financial data.

   2. While the general ledger system utilized by the Fund is compliant with the United States
      Standard General Ledger (“SGL”), it is not transaction-based nor is it derived from an
      integrated financial system.

   3. The financial management systems utilized by the Fund do not comply substantially with
      the requirements for Federal financial management systems set forth in OMB Circular
      A – 130, in that they do not fully, efficiently and effectively support the Fund’s efforts to:

           ◊   Prepare financial statements and other required financial and budget reports
               using information generated by the financial management systems;
           ◊   Provide reliable and timely financial information for managing current operations;
           ◊   Account for assets reliably, so that they can be properly protected from loss,
               misappropriation, or destruction; and
           ◊   Do all of the above in a way that is consistent with Federal accounting standards
               and the Standard General Ledger

       We believe these conditions, in the aggregate, result in significant departures from
       certain of the requirements of OMB Circulars A – 123, A – 127, and A – 130.

The reportable conditions identified above with respect to the internal control over financial
reporting discussed above indicate that the Fund is not in full compliance with the requirements
of OMB Circulars A – 123 and A – 127 and the FMFIA.

                                             ******




                                                56
To the Inspector General of the
 Department of Defense


Distribution

This report is intended solely for the information and use of the Inspector General of the
Department of Defense, the Audit Committee and management of the Fund, other Defense
Organizations, the Office of Management and Budget, the Government Accountability Office,
and the United States Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 1, 2006




                                           57
